<html>
<title> - INVASIVE SPECIES</title>
<body><pre>[Senate Hearing 109-209]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-209
 
                            INVASIVE SPECIES

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                            INVASIVE SPECIES

                               __________

                      VOLCANO, HI, AUGUST 9, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-981                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     1
Fox, Mark R., Director of External Affairs, The Nature 
  Conservancy of Hawaii..........................................    15
Leialoha, Julie, Manager, Big Island Invasive Species Committee, 
  Hilo, HI.......................................................    36
Penniman, Teya M., Manager, Maui Invasive Species Committee, 
  Makawao, HI....................................................    38
Reeser, Donald, Haleakala National Park Volunteer................     8
Reimer, Neil, Ph.D., Plant Quarantine Branch Chief, Hawaii 
  Department of Agriculture......................................    26
Simmons, Peter, Regional Asset Manager, Land Assets Division, 
  Endowment Group................................................    41
Soukup, Dr. Michael, Associate Director for Natural Resources, 
  Stewardship and Science, National Park Service, Department of 
  the Interior...................................................     3
Wilkinson, Dr. Mindy, Invasive Species Coordinator, Hawaii 
  Department of Land and Natural Resources, Division of Forestry 
  and Wildlife...................................................    21

                                APPENDIX

Responses to additional questions................................    49


                            INVASIVE SPECIES

                              ----------                              


                        TUESDAY, AUGUST 9, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                   Volcano, Hawaii.
    The subcommittee met pursuant to notice at 10:06 a.m., at 
Volcanoes National Park, Kilauea Visitor Center, Volcano, 
Hawaii, Hon. Daniel Akaka presiding.

            OPENING STATEMENT OF HON. DANIEL AKAKA, 
                      SENATOR FROM HAWAII

    Senator Akaka. This hearing of the Subcommittee on National 
Parks of the Committee on Energy and Natural Resources will 
come to order. I would like to welcome everyone this morning to 
the hearing. The purpose of the hearing is to examine issues 
concerning the management of invasive species in and around 
national parks and to look at possible legislative and 
partnership solutions. I am very glad to be able to hold this 
hearing here at Hawaii Volcanoes National Park, which faces 
major challenges in managing invasive species.
    I would like to thank Senator Craig Thomas of Wyoming, who 
is a good friend. We work very well together, and he's the 
chairman of this subcommittee; and Senator Pete Domenici and 
Jeff Bingaman of New Mexico, the chairman and ranking member of 
the Energy and Natural Resources Committee--that's another way 
of saying ``Interior''--for agreeing to this field hearing in 
Hawaii.
    I would also like to thank Tom Lillie, who is seated here, 
dressed real well, next to the flag, and thank him for being 
here. He is representing the subcommittee majority committee 
staff. I want to thank him for all his help and to welcome him 
here on his first--I want to stress that--his first visit to 
the Big Island.
    I want to say mahalo nui loa to Cindy, who was up here with 
the mayor, Cindy Orlando, the superintendent here at Hawaii 
Volcanoes National Park, for allowing us to use this facility 
and to thank her for the assistance and that of her staff--
great staff--not only with helping us put this hearing on, but 
also for making this hearing room look so wonderful today. 
Let's give them a big hand.
    [Applause.]
    Senator Akaka. You know, I must admit to you this is a 
different kind of hearing room for me. Usually Tom Lillie and 
Dave here and I sit in hearing rooms up there, and it doesn't 
look like this, so it's wonderful. Thank you so much for how 
you've transformed this room into this kind of a hearing room.
    In addition, I would like to recognize Holly Bundock, who 
is here from the National Park Services Pacific West regional 
office in California and who has spent many days helping us 
with this hearing.
    Holly, will you stand up so they can see.
    [Applause.]
    Senator Akaka. And I haven't mentioned Dave here. Dave is 
my staff in this subcommittee. And next to Dave is another 
staff, Shirley, who handles this part of my office. I would 
also like to welcome Councilman Bob Jacobson. Bob, are you 
here?
    Mr. Jacobson. Aloha.
    Senator Akaka. Aloha. Thank you for being here, Bob.
    Bob is a leader in the fight against invasive species, 
especially of the coqui frogs. Mahalo for coming today and for 
your hard work, Bob, on invasive species.
    As everyone here is aware, invasive species, whether 
plants, animals, or microscopic organisms, are causing billions 
and billions of dollars in damages throughout the United States 
and are a major threat to the survival of several threatened 
and endangered species. Nowhere, however, are the impacts of 
invasive species greater than here in Hawaii.
    Our State, which is known for its biodiversity, has more 
than 10,000 species found nowhere else on Earth. Unfortunately, 
invasive species are the primary cause of decline of Hawaii's 
threatened and endangered species. This is a major concern 
because of the 114 species that have become extinct during the 
first 20 years of the Endangered Species Act, almost half were 
in Hawaii.
    Invasive species also cause hundreds of millions of dollars 
in damages to Hawaii's agricultural industry and floricultural 
products, Hawaii's real estate, and Hawaii's water quality; and 
some species significantly increase the threat of wildfires. As 
serious as these problems are, we are fortunate that there are 
strong efforts at the Federal, State, and local level in Hawaii 
to combat invasive species threats. I wanted to hold a hearing 
here, in large part, to take advantage of the unique local 
knowledge and expertise, and I'm excited, really excited, to 
have such a distinguished group of witnesses appearing at this 
hearing today.
    Last month, I introduced S. 1541, the Public Land 
Protection and Conservation Act, legislation that would 
encourage Federal, State, local, and tribal governments, 
nonprofit organizations and private entities, to work together 
through a cost-shared cooperative grant program to control and 
mitigate the spread of invasive species. Senator Inouye, 
Senator Levin, and Senator Lautenberg are also original co-
sponsors of this legislation. This bill is not a cure-all for 
the many problems we are facing, but I hope if enacted into 
law, will provide land managers and other involved governments 
and organizations with an additional tool to help address the 
invasive species management issues. While my bill is not the 
direct subject of this hearing, I welcome any thoughts from the 
witnesses on this bill or other legislative proposals that 
would assist in this challenge.
    Before we hear from our first panel of witnesses, I would 
like to cover a few administrative details. As this is an 
official Senate hearing, all written statements and any other 
materials submitted will be included in their entirety in the 
hearing record. Anyone may submit additional statements after 
the hearing to be included in the record. You can mail your 
statement to any of my offices, and we'll forward it to the 
committee, or you can send it directly to the committee in 
Washington. The hearing record will remain open for 2 weeks.
    Finally, I would respectfully ask our witnesses today to 
please try and limit your oral remarks to approximately 5 
minutes so that we can have enough time for questions and any 
follow-up discussions.
    With that, is there anything else? I also would like to 
welcome two very special people who have come today, Ms. 
Suzanne Case. Suzanne, will you please stand up? Suzanne is 
executive director of the Nature Conservancy of Hawaii. Thank 
you for being here. And Ms. Geri Bell. I thought I caught sight 
of you, Geri. Aloha. How are you, Geri? Geri is a 
superintendent at Pu'uhonua O Honaunau National Historical 
Park, and that's on the other side of the island, in Kona. I 
want to thank both of you for being here.
    Is there anybody else? Well, thank you so much for being 
here. And I want you folks to feel relaxed and comfortable 
here, especially in this kind of setting. And now I'll turn on 
the light to begin.
    With that, I'd like to begin the hearing by asking our 
first panel to come forth. Dr. Mike Soukup, Associate Director 
of National Park Service in Washington, DC. Thank you for going 
with us last night to look at the lava flow.
    And Mr. Don Reeser of Makawao, the former superintendent of 
Haleakala National Park, who just retired in the last few 
weeks. Congratulations, Don. Best wishes to you, and thank you 
for coming for the hearing today.
    I also would like to welcome Dr. Lloyd Loope, who is 
accompanying Dr. Soukup and who I have asked to be here, from 
the U.S. Geological Survey of Hawaii, to serve as a resource 
witness today so that he can share his insights from his work 
on invasive species. Dr. Loope, I'll come back to you when we 
get to the questions.
    May I make a request here--and I nearly did not say it, but 
we normally say this because people sometimes, without 
realizing it, do have it on. If you have any cell phones, 
please turn them off during the hearing, we'd certainly 
appreciate that.
    Thank you very much, panel.
    Dr. Soukup, welcome, and please proceed.

STATEMENT OF DR. MICHAEL SOUKUP, ASSOCIATE DIRECTOR FOR NATURAL 
  RESOURCES, STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE, 
                   DEPARTMENT OF THE INTERIOR

    Dr. Soukup. Thank you, Senator. I very much appreciate this 
opportunity to be here and your convening this hearing on a 
major issue that affects the American public in many ways, and 
especially, I believe, affects the National Park System and the 
health of the systems that we manage.
    I also want to thank everyone for the hospitality that is 
apparently just very commonplace here. It's been very warming. 
I'm from that other place that Mr. Kim mentioned. I'm very 
happy to be here in such a nice setting.
    With me on this panel are two experts in invasives and 
invasives in Hawaii. Don Reeser is the recently retired 
superintendent of Haleakala National Park, and Dr. Lloyd Loope 
is a former NPS scientist, National Park Service scientist, now 
with USGS.
    I would like to submit my written testimony, Senator, along 
with two technical papers authored by Dr. Loope for the record 
and briefly summarize my written testimony.
    Senator Akaka. They will be included in the record.
    Dr. Soukup. Thank you, sir.
    Invasive species are one of the greatest threats to our 
natural and cultural heritage. Invasives are responsible for 
the listing of 42 percent of the endangered species listed 
under the Endangered Species Act. Invasives infest 2.6 million 
acres of the 83 million acres of national parks.
    Nowhere in the Nation, as was said earlier, is this issue 
more critical than here in Hawaii. New arrivals such as the 
rust fungus, Metrosideros polymorpha, for instance, threatens 
the 'Ohi'a tree and has now been found in nurseries in Oahu and 
Maui, and no one knows exactly the extent of what that rust 
will do to such important species in the Hawaii forests. Other 
invasives threaten important coral reef communities, and I got 
a chance to look at some of that recently on this trip, and 
also threatens not only the coral reef communities, but the 
tourism industry.
    As you know, Senator, the National Park Service has been 
mandated by Congress to maintain park resources unimpaired, for 
the enjoyment of present and future generations. For some time, 
the service has recognized and attempted to control invasives 
and has many successes, especially here in Hawaii. However, the 
problem grows. At the close of the 20th century, the National 
Park Service committed, with the help of Congress, to doubling 
its capability in natural resources management to meet the 
difficult issues of the 21st century. This initiative we call 
the Natural Resource Challenge. For the first time, National 
Parks will have a systematic inventory of its parks. For the 
first time, all parks will be monitored to help us with early 
detection and early intervention of invasive species.
    An important element of the Natural Resource Challenge is 
the creation of 16 Exotic Plant Management Teams. We call them 
EPMTs. We couldn't think of a better name. We tried to call 
them SWAT teams, but that seemed too confrontational. Perhaps 
they should be ``swath'' teams. These teams, which include the 
Pacific Islands Exotic Plant Management Team, which is based 
here in Hawaii Volcanoes are highly trained mobile teams that 
serve 209 parks nationwide and work in partnership with States 
and groups like the Student Conservation Association. Last 
year, the teams leveraged over $4 million, had 4,000 hours of 
volunteer service, and treated nearly 50,000 acres.
    The invasives issue requires coordination and partnerships 
to effectively attack such a pervasive problem. Hawaii has 
important examples of partnerships like the Maui Invasive 
Species Committee, that brings together the resources of the 
Federal Government, States, and individuals.
    Here at Hawaii Volcanoes, the Olaa-Kilauea Partnership is a 
cooperative management effort involving State and Federal 
entities and willing private landowners which protect the 
survival of native ecosystems on 420,000 acres. Other partners 
include the Puu Makaala National Area Reserve and the 
Kamehameha Schools, the U.S. Fish and Wildlife Service, the 
USGS, U.S. Forest Service, and the Nature Conservancy. The 
Nature Conservancy is a valuable partner for the National Park 
Service, and for important invasive projects nationwide.
    There are many barriers, however, to a more effective 
approach, and I would like to just mention one. An important 
one for the National Park Service is that we lack authorization 
to spend Federal funds on projects that treat invasives on 
lands adjacent to our borders where there is a clear and direct 
benefit to parks by spending that money in partnership. A 
recent GAO report cited this lack of authority as a significant 
impediment.
    Accordingly, the administration has now drafted a 
legislative proposal entitled the National Resource Protection 
Cooperative Agreement Act. This proposal would provide the 
Secretary of the Interior authority to protect park resources 
through collaborative efforts in lands inside and outside of 
National Park System units. The legislative proposal would 
ensure the protection of private property rights by authorizing 
collaborations with willing private landowners.
    Senator, I will conclude with thanking you again for your 
efforts to bring recognition to this important and growing 
issue, and I would be happy to try to answer any questions you 
may have. Thank you, mahalo.
    [The prepared statement of Dr. Soukup follows:]

 Prepared Statement of Michael Soukup, Associate Director for Natural 
Resource Stewardship and Science, National Park Service, Department of 
                              the Interior

    Mr. Chairman, thank you for the opportunity to provide an update to 
the Committee on the accomplishments of the National Park Service in 
battling invasive species on park lands.
    Invasive species proliferation is considered one of the greatest 
threats to our natural and cultural heritage. Invasive species 
encroachment is implicated in the listing of 42% of all species 
protected by the Endangered Species Act. Invasive plants are estimated 
to cause more than $20 billion per year in economic damages and affect 
millions of acres of public and private lands across the country. Of 
the 83 million acres managed by the National Park Service, 2.6 million 
acres are infested by invasive plants. Examples of invasive animal 
species plaguing the parks include feral pigs and goats, hemlock woolly 
adelgid insect, and New Zealand mudsnail.
    Recognizing that invasive species cross geographic and 
jurisdictional boundaries, collaborative efforts among Federal, State, 
and local entities and willing private landowners can be highly 
effective in managing a shared problem. For the National Park Service, 
one of the barriers to such collaboration is the lack of the authority 
to expend Federal funds for work outside of lands it manages where 
there is a clear and direct benefit to park natural resources. 
According to a recent General Accounting Office (GAO) report from 
February 2005, of the four major land management agencies examined by 
the GAO, the National Park Service was the only Federal agency that did 
not have this authority. This lack of consistency among Federal 
agencies is an impediment to effective collaboration and cooperation 
among potential partners to manage invasive species, especially with 
willing adjacent landowners.
    To address this problem, the Administration recently has 
transmitted to Congress a draft legislative proposal entitled, ``the 
Natural Resource Protection Cooperative Agreement Act.'' The proposal 
would provide the Secretary the authority to protect park resources 
through collaborative efforts on lands inside or outside of National 
Park System units. The legislative proposal would ensure the protection 
of private property rights by only authorizing collaborations with 
willing private landowners.
    With the continual arrival of new invaders to Hawaii, the problem 
of non-native species occupying park areas only increases. For example, 
the Coqui comun frogs, which reach cacophonous densities estimated to 
be between 10,000 and 40,000 per acre, are beginning to appear in 
Hawaii Volcanoes National Park. Coqui comun will decimate forest 
invertebrate fauna and significantly alter nutrient cycling in Hawaiian 
forests, while also degrading the natural quiet of the park and 
impacting the tourist industry. A recently arrived rust, Metrosideros 
polymorpha, found on ohia trees in plant nurseries on Oahu and Maui has 
the potential to seriously harm this most abundant native tree species 
and other key species in native ecosystems in Hawaii.
    Invasive marine algae are rapidly invading the Hawaiian Islands and 
other Pacific Island groups. These invaders are both financially and 
ecologically devastating. They can overgrow and kill corals, devastate 
coral habitat, alter ecosystem processes, and significantly impact the 
health and biodiversity of coral reef communities. With Hawaii's 
tourism industry so dependent on marine resources, these impacts can 
result in major financial losses.
    The Park Service is embarking on a two-year project to rapidly 
assess the threat from invasive marine plants within and adjacent to 
National Parks in Hawaii, Guam, Saipan, and American Samoa. Given the 
known distribution of invasive marine plants in shallow water habitats 
of the Hawaiian Islands, we must document these plant distributions and 
abundance in the Pacific Island Parks before they cause damage to 
marine resources and native or endemic species are lost. One area that 
has been invaded is Kaloko fishpond, located in Kaloko-Honokohau 
National Historical Park on the Kona coast of Hawaii. The historic 
fishpond is an 11-acre, spring-fed, natural embayment enclosed by a 
man-made stone wall. Red alga has entered the pond and currently covers 
about a third of the bottom. In addition to restoring this important 
native Hawaiian historic site, our concern is that the invasive algae 
will spread to the reef adjacent to the fishpond and throughout the 
Kona coastline. In cooperation with University of Hawaii, the Park 
Service is conducting a removal project to evaluate methods to diminish 
and control this invasion and prevent its spread. These methods include 
biological control using herbivorous fish, manual removal, shading, and 
re-cropping.
    The National Park Service has been a pioneer in combating threats 
to resources posed by invasive species. This work began with the 
grassroots efforts of staff in many parks; a few examples include the 
removal of feral pigs at Great Smoky Mountains National Park, burros at 
Grand Canyon National Park and purple loosestrife at Acadia National 
Park. As more and more invasives have encroached on parklands over the 
last century, the National Park Service has expanded its efforts to 
develop more complex and aggressive programs and policies to prevent, 
control and manage invasive species. For example, at Yellowstone 
National Park, staff has removed thousands of nonnative lake trout 
since 2000 because they were displacing native cutthroat trout, an 
important food source for grizzly bears. In New Mexico, invasive 
African oryx grew to a herd numbering more than 4,000 in White Sands 
National Monument. Because of resource damage, the park initiated a 
comprehensive control program in 1999 and successfully removed all oryx 
from the park. At St. Croix National Scenic Riverway in Wisconsin and 
Minnesota, a boat inspection program has been initiated with the State 
of Minnesota and Federal agencies to prevent the spread of invasive 
aquatic plants and zebra mussels into the Riverway. This prevention 
program was initiated to stop the introduction of zebra mussels that 
were outcompeting threatened and endangered native mussels. By 
aggressively taking steps to eliminate or prevent establishment of 
invasive species, native populations of animal and plant species can 
thrive on parklands.
    As part of the National Park Service's Natural Resource Challenge, 
a new management strategy was created for addressing invasive species 
in parks. Modeled after the approach used in wildland fire fighting, 
field-based Exotic Plant Management Teams (EPMTs) provide highly 
trained, mobile strike forces of plant management specialists who 
assist parks in the identification, treatment, control, restoration, 
and monitoring of areas infested with invasive plants. There are now 16 
teams covering 209 parks nationwide. This successful model has now been 
adopted by the U.S. Fish and Wildlife Service and the Student 
Conservation Association as well. The success of the EPMTs derives from 
its ability to adapt to local conditions and needs while still serving 
multiple parks within a broad geographic area.
    The Department of the Interior's Cooperative Conservation 
Initiative (CCI) is an innovative and collaborative program through 
which land management agencies partner with landowners and communities 
to battle invasive species and restore natural areas. During 2003-2004, 
the National Park Service has received about $6 million dollars for 
invasive species work, primarily weed management efforts. Since 2000, 
the EPMTs have entered into over 40 different cooperative efforts 
throughout the United States with more than $4 million dollars in 
matching support from public and private sources. In 2004 alone, 
volunteers contributed over 4,000 hours to our weed management efforts. 
In addition, we anticipate that the Noxious Weed Act recently passed by 
Congress will help provide financial and technical support to our State 
partners in controlling weeds. Finally, through a new Student 
Conservation Association partnership, student teams are being fielded 
to build our capacity and to train new invasive species management 
professionals to work beyond our boundaries.
    As a result of over 20 years of active ecosystem management 
starting with fencing and feral animal control, followed by invasive 
plant control and rare plant stabilization, spectacular recovery of 
native vegetation and associated fauna have occurred at Haleakala 
National Park, protecting one of the richest and most ecologically 
intact ecosystems within the National Park System. Thirteen endangered 
plants and five endangered birds are harbored on parklands along with 
dozens of rare plants and a diverse array of native arthropods. 
However, many non-native species threaten to invade native habitats at 
the park potentially reversing this recovery. For example, miconia, an 
invasive tree, feared as the ``green cancer'', would transform arguably 
the best remaining Hawaiian rainforest, and the only remaining home of 
two critically endangered forest birds, the Maui Parrotbill and 
Akohekohe, into the green and purple monoculture that has become the 
fate of the forests in Tahiti. Pampas grass and silk oak also threaten 
to convert native grasslands and forests into single invasive species 
stands. So far these three species have been eradicated from parklands 
through a joint partnership effort. However, reinvasion from adjacent 
lands remains a threat.
    Invasive animals are perhaps an even more imminent threat to parks 
in Hawaii. For example, the veiled chameleon has escaped as a result of 
the illegal pet trade and is considered by island biologists to have 
the potential for decimating native bird populations similar to what 
the brown tree snake has done on Guam. Much more work needs to be done 
to keep these and other invasives out of parks.
    As mentioned above, collaborative efforts are critical in managing 
the problem of invasive species. To this end, the National Park Service 
has been an active member on many partnership committees. At the 
national level, the National Park Service participates in a number of 
interagency partnerships and cooperative efforts of the National 
Invasive Species Council (NISC), including the control of invasive 
plants such as tamarisk and leafy spurge in the western United States. 
NISC is an inter-departmental Council charged with coordinating Federal 
invasive species programs and is co-chaired by Secretary Norton. The 
National Park Service participates in the taxa-focused Federal 
coordinating organizations for invasive species, the Federal 
Interagency Committee for the Management of Noxious and Exotic Weeds 
(FICMNEW), the Federal Interagency Committee on Invasive Terrestrial 
Animals and Pathogens (ITAP), and was recently invited to be a Federal 
member of the Aquatic Nuisance Species Task Force. Participation in 
these national efforts provides the National Park Service with 
opportunities to draw on broad expertise, identify shared priorities, 
pool resources, and work collaboratively on invasive species issues of 
national significance.
    The National Park Service also works actively with partners at the 
regional and local levels. For example, we are a member of the Maui 
Invasive Species Committee, an informal partnership of private, county, 
State and Federal agencies and individuals that has for the last three 
years worked to control invasive species through $1.6 million dollars 
in county and State grants. A similar effort led by the Big Island 
Invasive Species Committee is working to coordinate invasive management 
actions on the island.
    I would like to highlight an example of a very successful public-
private partnership, which is occurring here at Hawaii Volcanoes 
National Park. The Olaa-Kilauea Partnership on the island of Hawaii is 
a cooperative land management effort involving State and Federal 
entities and willing private landowners. The goals of the partnership 
are to enhance the long-term survival of native ecosystems and manage 
420,000 acres across multiple ownership boundaries. Management and 
research are currently focused on removing or reducing impacts from 
feral animals such as pigs, invasive plants and non-native predators, 
restoring native habitat and endangered species, and providing 
education and work training in fencing, native plant horticulture and 
other conservation work to Kulani Correctional Facility inmates. Other 
partners include the Puu Makaala Natural Area Reserve, the Kamehameha 
Schools, the U.S. Fish and Wildlife Service, the USGS Biological 
Resources Division, the USDA Forest Service, and the Nature 
Conservancy. The Partnership has jointly fenced 14,100 acres on State 
and private lands and eliminated the feral pig population from 9,800 
acres, while controlling feral pigs in an additional 4,300 acres.
    The Partnership also offers valuable educational and cultural 
benefits by providing staff and field sites for hands-on environmental 
educational activities for teacher workshops and student programs. The 
private landowner involved in the Partnership plans to restore the 
ranch adjacent to the park and use the entire area for conservation, 
cultural enrichment and education.
    The most cost-effective and successful strategy for battling 
invasive species is preventing them from ever entering our national 
parks. New and innovative programs are being established in a handful 
of parks to institutionalize prevention programs. In cases where this 
is not possible, the sooner new introductions are detected and 
addressed the greater the likelihood of eradication. The National Park 
Service's Inventory and Monitoring (I&M) Program networks are helping 
parks develop monitoring programs for the detection of new invasions so 
a quick response can ultimately remove the threat before it becomes 
unmanageable. The information is also used by EMPTs for identifying 
treatment areas and coordinating control projects with parks.
    The battle to manage the widely recognized and increasing problem 
of invasive species in our national parks has brought together a broad-
based coalition of public and private agencies, citizens and 
organizations with the shared goal of protecting our national heritage. 
The Department's commitment to take aggressive action to prevent and 
manage invasive species is evident by the support of programs such as 
the Natural Resource Challenge and the Cooperative Conservation 
Initiative.
    We applaud your efforts Mr. Chairman to bring recognition to this 
growing problem of invasive species on parklands across the Nation. 
This concludes my statement and I will be happy to answer any questions 
that you or members of the Committee may have.

    Senator Akaka. Thank you very much for your testimony. Next 
will be Don Reeser.
    Don, I understand that you have just retired from the Park 
Service after 17 years of serving as superintendent at 
Haleakala National Park on Maui. I know you have worked long 
and hard on many issues around Haleakala, including air tour 
management and invasive species, where you've really made a 
difference. I greatly appreciate your taking the time to come 
to the hearing today to share your experiences, particularly 
with respect to invasive species.
    Congratulations, once again, on the road to your 
retirement, and thank you for coming here today. We look 
forward to your testimony.

 STATEMENT OF DONALD REESER, HALEAKALA NATIONAL PARK VOLUNTEER

    Mr. Reeser. Thank you, Senator Akaka, for allowing me to 
come. For some reason, I don't feel too retired, being here, 
but I served 40 years for the National Park Service, 43 for the 
Federal Government, Muir Woods National Monument. I gave 
programs right here in 1968 and, later on, became chief of 
resources management, and then went over to Redwood National 
Park. I was chief of resources management in rehabilitation, 
then 17 years, as you say, at Haleakala.
    Now, when I transferred to Hawaii Volcanoes in 1968, there 
was concern by biologists for the impacts of two native 
biological resources by the thousands of feral goats and pigs 
that roamed the park. However, there was little support by the 
public or higher officials at that time for necessary action. 
Programs to control these animals by the National Park Service 
were largely perfunctory.
    By documenting feral animal impacts and demonstrating 
success in excluding feral animals from large fenced areas, 
public perceptions and understanding gradually changed through 
the years. Discredited was the notion that control of feral 
animals was enough to save native species. Finally acknowledged 
was the reality that total exclusion of feral animals is 
necessary to achieve native ecosystem preservation and 
restoration.
    In 1963, the Leopold Report on Wildlife Management, a blue-
ribbon committee, made recommendations to the National Park 
Service on how to manage resources. And one sentence in there, 
to me, really summed up what the policy was to be pursued, and 
that is, I quote, ``A visitor who climbs a mountain in Hawaii 
ought to see the money trees and silverswords, not goats.''
    Since the early 1970's, the National Park Service has been 
a leader in ecosystem preservation. Feral animals in Hawaii 
national parks are being effectively excluded by internal and 
boundary fences. Park interpretive programs emphasize ecosystem 
preservation and the problems associated with invasive species. 
Resource management divisions, with supporting U.S. Geological 
Survey, Biological Resources Division research assistance, have 
been established and dedicated to ecosystem preservation and 
restoration. Active involvement in watershed partnerships is 
ongoing and crucial in addressing invasive issues adjacent to 
park boundaries. An Exotic Plant Management Team is assigned to 
a host park, Haleakala, to help respond to the needs of several 
parks in Hawaii.
    Park ecosystem preservation has come a long way since the 
1970's in dealing with invasive species. We had a full plate of 
non-natives to deal with, including rats, mongooses, faya tree, 
kahili ginger, to name a few. However, today we have new 
invasive species such as Coqui frogs, Miconia and leaf hoppers, 
and, now, if you've been reading the news, we've got a wiliwili 
wasp we weren't even thinking about just 3 days ago, and now 
it's here and there's a possibility of wiping out the wiliwili 
trees. While resource management worked on programs to deal 
with existing pests, new ones were arriving on the scene. Park 
managers now fear that the brown tree snake and red fire ant 
will soon be on the control list.
    Airports and harbors are the obvious pathways for the new 
arrivals that threaten public health, agricultural crops, and 
native ecosystems. On Maui, the National Park Service has 
played a proactive role in trying to effect change in the 
infrastructure and the scope of interdiction activities at 
Kahului Airport. National Park Service challenges to the 
airport improvement environmental compliance documentation 
resulted in an alien species program requirement that was 
appended to the final record of decision. Risk assessments 
conducted by the Hawaii Department of Agriculture confirmed the 
validity of park concerns.
    Nevertheless, after nearly a decade of meetings and 
discussion among key agencies, there remains substantial 
resistance or apathy for the implementation of effective and 
adequately staffed interdiction programs at Kahului Airport 
where implementation of an alien species action plan was 
mandated. Recent legislation sponsored by Congressman Ed Case, 
which would require the Secretary of Agriculture and the 
Secretary of the Interior to expand Federal efforts to prevent 
the introduction in Hawaii of non-native plants, animals, and 
plant and animal diseases, if this is enacted, this may help 
achieve the needed changes at the airports and harbors.
    Harbors as an avenue for invasive species have not received 
the attention they deserve because they are longstanding 
existing operations. However, in the last year, a proposal for 
Superferries operating between islands has raised concern for 
accelerating the spread of invasive species between islands. 
The NPS testified before the Maui County Council that the 
enormous increase of loaded vehicles entering Maui would cause 
adverse impacts to park ecosystems. Many of these vehicles 
aboard the Superferries will be carrying invasive plant seeds 
such as Miconia, fountain grasses, insects, spreading them from 
sea level to 10,000 feet elevation. Probable impacts to a 
national park require analyses and mitigations under the 
National Environmental Protection Act. Hawaii Department of 
Transportation has declined to prepare an Environmental Impact 
Statement.
    National parks should be outstanding examples of ecosystem 
preservation and principal leaders in combating alien invasive 
species. Major challenges facing the National Park Service 
include: dealing more aggressively and effectively with 
established invasive species using traditional methods, as well 
as seeking and employing new biological controls; two, gaining 
clear authority for targeting certain invasive species outside 
park boundaries rather than waiting to fight them in the park; 
and three, preventing the establishment of new pest species in 
Hawaii.
    Additional funding for invasive control and ecosystem 
restoration programs is an obvious need. Eroding park bases 
from inflation and mandated programs have made it tough for 
park managers to keep adequate funding in resource protection 
programs.
    Special legislation that makes it easier for the National 
Park Service to assist adjacent park partners in attacking 
ecosystem-changing species such as Miconia is desperately 
needed. Guidelines for recreational fee demonstration program 
revenues received at entrance stations and from commercial 
operations at national parks need to be liberalized for funding 
serious invasive species programs inside and on adjacent 
partnership lands.
    And, finally, thank you, Senator Akaka. In my experience 
here for, I think, 27 years in Hawaii, I know that you have 
been very supportive of money for fencing and for alien species 
control, and the national parks are in far better shape today 
because of your vision and commitment to the preservation of 
native Hawaiian plants and animals. Thank you.
    Senator Akaka. Thank you very much for your testimony. I 
would like to ask questions of you, beginning with Dr. Soukup.
    How much did the National Park Service spend on invasive 
species in 2004? Two parts of the question. How much of that 
was spent, also, at park units in Hawaii? And what are your 
estimates for the current year, and do you have any estimate as 
to what percent of the need it addresses?
    Dr. Soukup. Well, I can tell you the numbers of the current 
expenditure insofar as we track them. There's a lot of 
individual activity out at parks, and a lot of parks are 
spending portions of their base funding that we can't track all 
that well, but of the funds that we know that are going 
directly and appear in line items that we can track, over $10 
million is being spent just out of the challenge alone. That 
doesn't include the park base increases. $10 million 
nationwide. In 2004, I think it was something like $5 million 
here in Hawaii, and $6 million in 2005 is estimated when the 
year is over that we will spend. I think that's an 
underestimate, but it certainly, I think, reflects a very small 
proportion of what needs to be done to control what many people 
consider to be a biological wildfire.
    What we don't see is the order of magnitude of effort 
available to us that you see for wildfires, for instance. I 
think we need the same kind of approach. And I don't believe 
people are aware of the consequences as they are of fire, and I 
think we need to invest in making people more aware of that so 
that the funding, perhaps, will catch up with the need.
    Senator Akaka. As we all know, funding is very important, 
and invasive species programs are extremely important to 
Hawaii. We know that you will keep that high in your mind as 
you think about funding.
    Dr. Soukup, what is the National Park Service's highest 
priority for invasive species management overall, and what is 
its highest priority in Hawaii?
    Dr. Soukup. Well, one of the things that has to be done 
with the amount of funding that we can apply and the magnitude 
of the issue is we have to have a very methodical, science-
based approach to ranking the different invasive species. As 
you know, some species are not invasive to the degree that 
others are. And it's very important to be able to track and 
predict which ones have to be interdicted early. And that's a 
real, I think, scientific challenge.
    We're getting a tremendous amount of help from the USGS as 
well as our cooperative ecosystem studies units that are based 
at universities, in helping us target our funding and our plant 
management teams to the most aggressive and most, eventually, 
costly invasives. That, I think, is the best way we can go, and 
that will certainly, I think, have the biggest impact, that 
plus being able to partner with the States and local 
organizations.
    In terms of the highest priority right now, I have my own 
personal list. It's the old world climbing vine in the 
Everglades. I will maybe ask Dr. Loope to talk about what he 
thinks is the most aggressive threat here in the islands.
    Senator Akaka. I know you have what you call Exotic Plant 
Management Teams working in the National Park Service, and they 
are working to combat invasive species. Have these teams been 
successful? And what have they accomplished in Hawaii? What do 
you see as the future of this program?
    Dr. Soukup. This program is only several years old, but we 
believe they have already demonstrated their utility, not only 
in aggressively attacking priority species; I think we've 
eliminated 12 species from all parks nationwide, already 
completely to a maintenance level.
    We are, I think, going to find increased support from the 
Department and from other agencies. There are other agencies 
that are now fielding similar teams, and we're helping train 
those teams. So we think the idea is a good one. It's certainly 
flexible. It attracts partners. We have partners at all levels 
of government and individuals who contribute their money and 
their time. So we think that the idea is a good concept and 
it's certainly going to be, I hope, supported in the future.
    The 2007 budget proposal, I think, will be a very positive 
one for us. I don't have a lot of information with me--I can 
provide it for the record--of the accomplishments here in the 
Hawaiian Islands. I don't know if the panel would like to speak 
to that or not, but I know there's been great progress in 
dealing with Miconia, for instance, and I'm sure other species 
are also targeted.
    Senator Akaka. I know the National Park Service has been 
working diligently in the battle against invasive species. My 
final question to you is what do you consider the greatest 
success story for the National Park Service in the battle of 
invasive species?
    Dr. Soukup. I believe that I have a list--I personally like 
the preclusion of the zebra mussel from the St. Croix National 
Scenic Riverway. The park, on its own, with its own finances, 
acted very quickly to inspect recreational boats and remove and 
restrict recreational access whenever there was a threat from 
the spread of the zebra mussel. I think that's a very good 
example. There were communities of endemic mussels in that 
river that would have been wiped out very quickly had they not 
taken appropriate action very, very quickly. And they've been 
very successful.
    Removal of the burro from the Grand Canyon would be 
another, as would Melaleuca removal from Big Cypress National 
Preserve in Hawaii. We removed 100,000 acres of a very 
aggressive plant and had a ribbon-cutting as we hacked the last 
one down, I think, 2 years ago. I think there are lots of 
successes out there. Another example would be removing the 
African oryx from the White Sands National Monument. 4,000 
white African oryx were removed. The rat removal from the 
Channel Islands has brought the birds back.
    We have a ton of success stories, and I think they prove 
that with a little bit of resources, we can take on a lot of 
the worst problems. And I think with concerted resources and a 
cooperative approach, I think we can do a lot more.
    Senator Akaka. Thank you for your testimony.
    Mr. Reeser, you've said that guidelines for the use of park 
fee revenues need to be liberalized to fund serious invasive 
species problems. Can you explain what are the limitations of 
the use of park fee revenues and what specific new authority is 
needed?
    Mr. Reeser. Well, the fee demonstration program is limited 
to projects on Federal lands. When we started collecting fees 
at Kipahulu, we had plans to use the revenues there, which 
would have been a couple million dollars a year, which were 
actually--that we hoped to have used that for Miconia, to 
prevent it from getting in the park, but after a lot of 
discussions with solicitors and higher officials, the phrase in 
the law that says ``only on Federal lands'' pretty much did 
away with that idea.
    If we would have been able to use that money, I think we'd 
be a lot further along right now with Miconia than we are now. 
But those are the restrictions, and I know there is some 
legislation that you are working on under certain conditions 
that partners could receive some Federal funding to work on 
aliens that jeopardize park resources.
    Senator Akaka. I'm glad you mentioned what you did. I think 
my bill will be able to help with that when it's passed.
    Mr. Reeser, let me ask you a similar question to one that I 
asked Dr. Soukup. What do you consider your biggest--biggest--
success at Haleakala in managing--two things--in managing the 
invasive species, and what is the biggest remaining challenge?
    Mr. Reeser. Well, on Haleakala, the greatest success was 
building those incredibly difficult fences along the crater 
walls there to exclude the goats. And there's tremendous 
recovery taking place in the crater, silverswords and other 
species, for a decade now or more. And Kipahulu Valley, putting 
across fences in Kipahulu Valley, the boundary fences and 
getting rid of the pigs. There have been documented changes 
there that are quite significant.
    Our biggest challenge right now is how to deal with the 
greatest threat to the park, and that's that Miconia that we've 
been working with the East Hawaii Partnership, with the Maui 
Invasive Species Committee, and others to try to facilitate, 
but that is the biggest threat. That could undo all the good 
work we've done in Kipahulu Valley up to this point, and that's 
one of the richest areas left in the State.
    Senator Akaka. Thank you very much.
    Dr. Loope, thank you for agreeing to come and provide 
comments today. We have you on the witness list as a resource 
person, and I'd like to ask you a few questions about invasive 
species since you have worked for both the National Park 
Service and the U.S. Geological Survey.
    Dr. Loope, from your perspective and experience, what are 
some of the invasions that pose the worst threats to the parks 
in Hawaii, how did these invaders get to Hawaii in the first 
place, and what damage do they do? Finally, what measures are 
needed to prevent more of the same coming to Hawaii?
    Dr. Loope. That's a pretty demanding question to answer, 
you know, to capsulize right, but I'll do my best.
    I guess I really agree with Don Reeser's mention of the 
fact that thinking of Haleakala National Park, that Miconia is 
just an overwhelming threat looming out there, and I think that 
if--there might be a good solution if the Park Service can find 
a way to use funding outside the park and to be able to use 
entrance fee money. So that's one thing.
    There are problems that money can actually solve. Okay? But 
another type of problem--another type of invasive species that 
I really get discouraged about, actually Mike Soukup mentioned, 
the 'Ohi'a rust. And, usually, we think--I think you mentioned 
in your introduction that invasive species are a threat to 
Hawaii's endangered species. Well, unfortunately, that's an 
understatement. Look outside at the 'Ohi'a trees right around 
here. Hawaii isn't a basket case. We have pretty intact 
ecosystems in these national parks.
    Unfortunately, this 'Ohi'a rust, there's almost nothing we 
can do about it, since it's already been introduced. Possibly a 
species like this could wipe out all of our 'Ohi'a trees. That 
sounds like an exaggeration, and I wouldn't have said it even 
last week, except there's a lot in the press on Maui about this 
new insect--it's a gallwasp. It came to us from Asia, and it's 
basically killing all of our native wiliwili trees, endemic 
species. And like Geraldine over at Hula Hanua, she's got 
wiliwili trees, right? I mean, this snuck up on us. It was 
recorded first on Oahu in April. And all of a sudden--we find 
out that it's killing all the wiliwili trees on Oahu, and all 
of a sudden it's on all the other islands. It was found at Kona 
Airport on the 21st of July, Kauai a few days later, and now 
Maui, and we realize it's probably been on Maui for a month. We 
really want to do something about it, but it's just too late. 
And so I guess I would just like to say that we have to find a 
way to stop these new invasions from coming in. And I'm sad to 
say just those two species, one--the gallwasp certainly came 
from the direction of Asia. It was probably originally native 
to Africa. Came to us from Asia. And, actually, there was no 
chance, with the quarantine system that we have, of stopping 
something like that.
    And the same thing about the 'Ohi'a rust. It possibly came 
from Florida, but more likely Colombia or Venezuela, in nursery 
material. I think the 'Ohi'a rust came in on a host plant. And 
so it's kind of unclear. You'll hear more in the testimony 
later on that it's, understandably, the U.S. Department of 
Agriculture's quarantine system that protects our borders. The 
Department of Homeland Security, they have priorities that are 
very understandable--security, right?--in protecting 
agriculture. And so it seems that the 'Ohi'a trees and wiliwili 
are not something that's focused on. I would just think that 
maybe you might want to look into this more, because if we 
don't, we're finding out what's going to happen. On Maui we're 
losing all our wiliwili trees. Unfortunately, Geraldine is 
going to lose hers, too, probably. I just hope that the 'Ohi'a 
trees around here don't succumb to this strain of rust. If they 
don't, we'd better try doubly hard to keep out future strains.
    Thank you so much for the opportunity to speak. I just 
think that's we're going to lose unless we can keep new 
invasions out at least better than we are now.
    Senator Akaka. Dr. Loope, this has been one of our huge 
problems, and that is to prevent these invasive species from 
coming in to Hawaii. Do you have any ideas? You mentioned the 
Department of Agriculture in checking whatever comes in with 
people who come to the islands. Do you have any specific 
measures in mind that we might be able to use to prevent 
further invasive species from coming in to Hawaii?
    Dr. Loope. Well, it's hard to make specific recommendations 
without upsetting somebody, but I guess I'll have to say it 
because you asked me. It just seems like it's the plant trade. 
If we looked very carefully at the plants that are allowed to 
come in to Hawaii from both the east and from the west. I am 
not saying cut it off. The costs aren't just costs to 
agriculture and horticulture when the pests get in. They're a 
tremendous cost for national resources and specifically for 
national parks.
    I think looking at it in terms of economics is fine, but we 
can't look at it just as protecting national security and 
agriculture. We've got to think about--in other words, 
basically, it's what's allowed to be traded in this world of 
free trade. That's just my suggestion.
    Senator Akaka. Well, I thank you very much for your 
responses. I want to thank the first panel of witnesses very 
much. We look forward to your responses as to how we can help 
the problem of invasive species, and hopefully the bills that 
we are crafting and proposing will make a difference, and your 
testimony will help us do that. So thank you very much to the 
first panel.
    As you leave, Mike, I want to say aloha to you. I know you 
have to catch a plane. And thank you very much for being here.
    Dr. Soukup. Thank you, Senator.
    Senator Akaka. I would like to call the next panel. Mr. 
Mark Fox, director of external affairs, Nature Conservancy of 
Hawaii; also Dr.. Mindy Wilkinson, invasive species 
coordinator, Division of Forestry and Wildlife; and Dr. Neil 
Reimer, branch chief, Plant Quarantine, Hawaii Department of 
Agriculture.
    Many of you don't know this, but I've known Mark for a few 
years. Mark, it's good to see you again here in Hawaii.
    And I would like to express my great appreciation for all 
the wonderful work that the Nature Conservancy has done in 
Hawaii for conservation, endangered species, and battling 
invasive species to help preserve our native habitat. So why 
don't you proceed with your testimony, Mark.

  STATEMENT OF MARK R. FOX, DIRECTOR OF EXTERNAL AFFAIRS, THE 
                  NATURE CONSERVANCY OF HAWAII

    Mr. Fox. Thank you, Senator. It's very good to see you as 
well. And thank you, also, for hosting this important hearing.
    The Nature Conservancy's experience as a land manager in 
Hawaii for the last 25 years has shown us that the single 
greatest threat to the survival of Hawaii's natural environment 
is the damage done by non-native, invasive species. Indeed, 
more than 90 percent of our work in the field is directly 
connected to dealing with invasive species.
    In that regard, we greatly appreciate your sponsorship of 
important bills moving us in the right direction on this issue: 
The Natural Resource Protection Cooperative Agreement, the 
Public Land Protection and Conservation Act, and also your 
sponsorship of the very comprehensive National Aquatic Invasive 
Species Act. All of those measures--and I'm going to just 
briefly mention them because we support them so much. I just 
want you to know that we appreciate them but don't mean to 
diminish their importance by not going into depth. You've got 
our full support on those, and we can't thank you enough for 
your sponsorship of those measures.
    I would like to turn to some things that the previous panel 
was talking about and add a little bit to that, and that's the 
area of prevention. And we all know, and it's been proven, that 
the best way to deal with invasive species is to prevent their 
introduction in the first place. And this issue--it's not 
directly within the jurisdiction, necessarily, of the 
subcommittee, but it's an area of critical importance. And as 
Don Reeser mentioned, as a direct result of National Park 
Service leadership, the model for prevention is beginning to be 
realized at Kahului Airport on Maui. That important progress 
that's going on there traces back to Don Reeser's insistence on 
protecting against new pest introductions that might result 
from, at that time, a proposed runway extension on Maui.
    The end result of Don's leadership, and much collaboration 
between Federal and State agencies, are that we're now having 
some more inspectors placed at Kahului International Airport, 
and there's plans to construct a modern and enclosed inspection 
facility at Kahului Airport. You can imagine now, when 
agricultural inspection is done on Maui, when you open a 
container, and how windy it is there, once you open the doors 
of that container, that stuff is scattered to the wind. So 
soon, hopefully, we'll have a new inspection facility. But all 
of that is a direct result of national park leadership not only 
recognizing the need to protect the resources of Haleakala 
there, but natural landscapes and the economy of Maui County.
    But even with the progress at Kahului, there are formidable 
challenges to developing a truly effective prevention system. 
This goes right up to and includes the U.S. Constitution and 
the free market principles this Nation was founded upon. For 
centuries, this country has promoted the important notions of 
free trade and open borders to commence.
    The Constitution's Commerce and Supremacy Clauses, together 
with the specific preemption provisions of the Federal Plant 
Protection Act, are interpreted to prevent States from being 
more restrictive than the Federal Government in regulating the 
movement of plants and plant products in interstate and foreign 
commerce. So the State of Hawaii runs directly into this 
Federal preemption if it wishes to strengthen its statutes 
regarding plants or plant pests or implement stricter 
quarantine regulations in order to protect the islands from 
invasive species. The only available choice for the State of 
Hawaii is a long and laborious process of securing exemptions 
on a species-by-species basis from the Secretary of 
Agriculture.
    Now, to begin to try to address this problem, the Hawaii 
Invasive Species Prevention Act, or H.R. 3468, has been 
introduced in the House. The bill would establish an expedited 
review process for the State of Hawaii to impose greater 
restrictions on the movement of invasive species, it would 
mandate a Federal quarantine to protect Hawaii from new 
introductions of pests, and it would allow for the Federal 
enforcement of State quarantine laws. So we're hopeful, and 
I've talked to your staff a little bit about this bill, that 
you'll have an opportunity to consider and potentially 
introduce a Senate companion measure.
    Last, I would like to make a few comments on the threat of 
the brown tree snake. The subject came up on the earlier panel 
as well. Current and planned expansion of military activities 
on Guam is putting enormous pressure on military facilities 
there, and as a result, it's putting enormous pressure on the 
U.S. Department of Ag Wildlife Services personnel that have to 
do all the inspections. They're really being pushed to the 
brink. They're in substandard facilities there, they have 
limited financial resources, and now, with all the cargo moving 
in and out of Guam, things are leaving uninspected daily from 
Guam for brown tree snakes. As a matter of fact, over 300,000 
pounds of cargo left Guam uninspected in the last 2 weeks of 
June.
    The 2003 reauthorization of the Federal Sikes Act required 
that the Integrated Natural Resource Management Plan for 
Anderson Air Force Base include invasive species 
considerations. We hope that the Armed Services Committee can 
review the progress on that INRMP and consider applying that 
kind of assistance to INRMPs across Defense Department 
activities. It's really important, with the Defense Department 
movement of cargo, that invasive species mitigation be 
considered, and we're hopeful something like this can be taken 
up by the Armed Services Committee and your Readiness and 
Management Support Subcommittee.
    With that, I'll close my remarks and thank you again for 
this opportunity. I really, really appreciate your leadership 
on this issue. I can't thank you enough.
    [The prepared statement of Mr. Fox follows:]

   Prepared Statement of Mark R. Fox, Director of External Affairs, 
                The Nature Conservancy, Hawai'i Program

                              INTRODUCTION

    Senator Akaka, thank you for hosting this hearing and for the 
opportunity to testify on invasive species issues and legislative 
solutions to this serious threat. My name is Mark Fox, and I am the 
Director of External Affairs for The Nature Conservancy of Hawai'i.
    The mission of The Nature Conservancy is to preserve the plants, 
animals and natural communities that represent the diversity of life on 
Earth by protecting the lands and waters they need to survive. With the 
support of approximately 1 million members, The Nature Conservancy has 
protected more than 120 million acres and 5,000 river miles around the 
world.
    The Hawaii Chapter of the Conservancy has been in operation for 25 
years and we currently manage a network of 12 preserves encompassing 
about 32,000 acres across the main Hawaiian islands. In addition to our 
core field work on our own preserves, we work with public and private 
colleagues throughout the state to organize and operate partnership 
entities that help protect and manage the islands' globally unique, but 
extremely fragile natural resources.
    Examples of these partnerships include the five Island Invasive 
Species Committees that you hear a lot about today, and nine watershed 
partnerships around the islands that are managing nearly 1 million 
acres of Hawaii's most important forested watersheds. Another example 
of such collaboration can now be enjoyed here at Hawai'i Volcanoes 
National Park. With leadership from the entire Hawaii Congressional 
delegation, we acquired and transferred to the Park Service the 
115,000-acre Kahuku Ranch. That single transaction, valued at 
$22,000,000 and completed in 2004, expanded the Park's land ownership 
by one-half and is the largest single conservation land acquisition in 
the history of the State.

                     BACKGROUND ON INVASIVE SPECIES

    Our organization's experience over the last quarter century 
demonstrates that the single greatest threat to the survival of 
Hawaii's natural environment is the damage done by non-native, invasive 
species. Indeed, more than 90% of our field work and that of our 
conservation partners in Hawai'i is directed to preventing, detecting, 
and controlling invasive species, both plants and animals, that alter 
and ultimately devastate the islands' natural environment.
    As you know, however, this is not just an environmental problem. 
Under unfortunate circumstances, we are finding strong allies across a 
wide variety of sectors including the visitor industry, health care, 
agriculture, and real estate as we all try to figure out how to deal 
with pests ranging from alien algae that blanket coral reefs, mosquito 
borne diseases, fire ants and stinging caterpillars, forest-choking 
weeds, ear-splitting coqui frogs, and costly crop diseases.
    We have been working hard over many years to physically control 
invasive species once they have arrived and become established. 
However, it is only in the last 10 years that we have undertaken an 
organized effort in Hawai'i to affect public policy with respect to 
invasive species. Our work at the county, state and federal levels 
includes efforts to enhance recognition of the ecological, economic, 
health, and lifestyle threats from invasive species, to secure more 
funding to address these threats, and to support improved government 
policy in this area.

                    INTERIOR DEPARTMENT LEGISLATION

    We appreciate the leadership of Senator Akaka and Senator Wyden in 
sponsoring important bills that move us in the right direction of 
addressing pressing invasive species policy needs. The Natural Resource 
Protection Cooperative Agreement Act (S. 1288) will help with a very 
practical problem that has challenged the National Park Service. This 
important legislation addresses the fact that no authority now exists 
to allow a park to expend resources or enter into partnerships to 
control imminent invasive species threats outside park boundaries. The 
provisions of S. 1288 would simply and effectively resolve this 
problem, as well as provide additional authority for the Park Service 
to enter into collaborative relationships that will benefit park 
resources. We trust the Administration will support this legislative 
version of the principles underlying the President's Executive Order on 
Cooperative Conservation.
    The Park Service has the expertise to provide significant national 
leadership in this area. For example, using the teams that fight 
wildfires as a model, the National Park Service established Exotic 
Plant Management Teams (EPMT) across the country to serve as a highly-
trained, mobile strike force that now protects hundreds of National 
Parks from the threat of invasive plants. Thanks to this program, the 
Pacific Islands EPMT proactively manages aggressive weeds in all the 
national parks in Hawai'i, protecting rare native communities from 
invasion.
    We also appreciate your planned reintroduction of the Public Land 
Protection and Conservation Act (S. 2598, 108th Cong.). This measure 
creates an excellent framework of federal granting authority to assist 
states with assessment and rapid response to invasive species threats, 
and to foster partnerships to control pests on and adjacent to Interior 
and Forest Service lands. This bill would provide an important 
additional source of revenue to leverage existing state and local 
funding for invasive species, including funding for rapid response 
programs to eradicate incipient invasions before they become widely 
established. Together with other members of the National Environmental 
Coalition on Invasive Species, the Conservancy endorses this 
legislation and looks forward to working with you to gain passage of 
this bill.

                       PREVENTION AND QUARANTINE

    We can and will spend vast amounts of time and money battling pests 
that become established in Hawai'i and elsewhere in the United States. 
However, it is a documented fact that the most effective, especially 
cost effective, way to deal with invasive species is to prevent their 
introduction in the first place.
    Legislation designed, in part, to prevent the further introduction 
of aquatic invasive species to the United States, has already been 
introduced in both the House and Senate (S. 770 and H.R. 1591/1592). 
The Conservancy supports the National Aquatic Invasive Species Act 
(NAISA), which is a comprehensive legislative approach to the threat of 
aquatic invasive species. This bill will cover all waters of the U.S., 
including marine and coastal waters, as well as inland lakes and 
streams. The provisions providing for the pre-screening of intentional 
introductions and the establishment of an early warning system coupled 
with rapid response capability are important new authorities that would 
protect all of our nation's aquatic resources, whether Great Lake, 
trout stream, bayou, or coral reef
    The need for NAISA is demonstrated by existing invasions of 
national parks. For example, the New Zealand mud snail was accidentally 
introduced into Yellowstone National Park by recreational fishermen. 
This tiny snail is now alarmingly abundant and could prove to have 
major effects on some of the most pristine streams in the country. 
Likewise, the hitchhiking zebra mussel has spread to Wisconsin and is 
now smothering rare and endangered native mussels in the NPS 
administered St. Croix National Scenic Riverway.
    Another major threat to the resources of many National Parks is the 
existing and potential effects of introduced forest insects and 
diseases. The forests of such eastern parks as Great Smoky Mountains 
National Park and Shenandoah National Park no longer represent the 
primeval forest of the Appalachians. The most noticeable missing tree 
is the American chestnut, which was virtually eradicated during the 
early 1900s by the introduced chestnut blight. Other trees in the 
Appalachians have succumbed to and are threatened by a succession of 
invasions. Increasing attention is currently focused on the hemlock 
woolly adelgid pest, which is killing the towering hemlocks that form 
unique ecosystems of great beauty and biological importance. This year, 
the U.S. Forest Service's Forest Health Management program will fund 
more than $350,000 to map and develop a response to this pest in Great 
Smoky and Shenandoah National Parks, the Blue Ridge Parkway, and 
several smaller historic park units. The response to this alien invader 
will probably rely largely on biological control and attempts to breed 
resistant trees.
    Great Smoky Mountains National Park might soon face an even greater 
menace, the sudden oak death pathogen. This plant disease, currently 
found in California where it is killing oaks and infesting other trees 
and plants in Redwoods National Park and Point Reyes National Seashore, 
can easily be spread by the movement of nursery stock. If the USDA's 
Animal and Plant Health Protection Service (APHIS) fails to prevent 
such transmission, sudden oak death could infect a high proportion of 
the oak trees in Great Smoky Mountains and other parks, as well as the 
rhododendron shrubs that contribute so much to spring floral displays.
    In addition, white pine blister rust is killing ninety percent or 
more of high-elevation five-needle pines in Glacier, Yellowstone, and 
Crater Lake National parks. The disease was recently found in the 
mountains above Great Sand Dunes National Park. As the disease 
continues to spread in the Rockies, it will threaten pines in Rocky 
Mountain and Great Basin National parks.
    As noted above, much of the National Park Service' current effort 
to combat introduced forest insects and pathogens is funded through the 
USDA Forest Service Forest Health Management Program. Chairman Charles 
Taylor of the House Interior Appropriations Subcommittee has provided 
key Congressional leadership to increase funding for this program. 
However, the agency responsible for preventing introductions of forest 
pests and eradicating those that evade border controls is USDA APHIS. 
Unfortunately, APHIS has not received adequate funding to carry out 
effective eradication programs targeting even the pests which pose the 
greatest risk, such as the emerald ash borer and Asian longhorned 
beetle. Congress and the governors of affected states have urged the 
Administration to provide emergency funds from the Commodity Credit 
Corporation, but the Administration has so far rejected such requests.
    Turning more directly to the issue of prevention and the threat of 
new pest introductions in Hawai'i, I would like to offer some specific 
comments on inspection and quarantine activities at ports of entry. 
While this may not be directly within the jurisdiction of this 
subcommittee, it is an area of critical importance to any entity trying 
to manage invasive species threats.
    As a direct result of National Park Service leadership, a model for 
prevention is being realized on the island of Maui where we are all 
benefiting from improved understanding of pest risks and enhanced 
quarantine and inspection capacity at Kahului International Airport. 
These enhancements include additional inspectors and a modern and 
secure inspection facility that will soon be constructed at the 
airport.
    This process, which began with a proposed runway extension, was not 
easy for anyone involved particularly on an island that relies heavily 
on visitor and cargo arrivals to support its economy. However, the 
model now being established at Kahului airport is the product of hard 
work and understanding by a number of individuals and agencies like the 
National Park Service, the Federal Aviation Administration, the U.S. 
Fish & Wildlife Service, the Hawaii Department of Transportation 
Airports Division, the Hawaii Department of Agriculture, and others.
    The important progress at Kahului airport traces back to Haleakala 
National Park leadership, particularly Superintendent Don Reeser who is 
here today, that insisted on the importance of protecting against new 
pest introductions. This position by the Park Service was primarily for 
the protection of the globally unique resources at Haleakala National 
Park, but it also was based in the much broader appreciation of the 
role of natural landscapes on Maui and across the island chain. After 
all, Hawaii's natural environment is what drives our visitor economy, 
provides the year-round climate for our diversified agriculture 
industry, delivers the most basic necessities like clean fresh water 
from healthy forested watersheds, and allows us the lifestyle that all 
residents enjoy.
    It is also worth noting that the Park Service in Hawai'i and 
Channels Island National Park has been a leader in protecting globally 
significant resources from feral animals, including pigs, goats and 
sheep.
Federal Preemption
    Even with this spirit of collaboration and example of success at 
Kahului airport, there are formidable challenges to developing a truly 
effective prevention system--right up to and including the United State 
Constitution and the free market principles this nation is founded 
upon. For centuries this country has promoted the important notions of 
free trade and open boarders to commerce.
    The Constitution's Commerce Clause (Art I., Sec. 8, Clause 3) and 
Supremacy Clause (Art VI, Clause 2) set that stage by giving Congress 
the authority to regulate commerce with other nations and between the 
states, and confirming that federal law is the supreme law of the land. 
In the area of pest prevention, the federal Plant Protection Act takes 
it a step further by specifically preempting states from being more 
restrictive than the federal government in regulating the movement of 
plants and plant products. (7 U.S.C. Sec. 7756) The federal government 
is not so preemptive with respect to regulating the movement of 
animals, both terrestrial and aquatic.
    The differences in Hawai'i state law regarding the introduction of 
plants and non-domestic animals (Hawai'i Revised Statutes 
Sec. Sec. 150A-6.1 and -6.2) directly reflect the preference for 
movement of plants through federal preemption of state regulatory 
regimes. Basically, Hawaii uses a black list (noxious weed list) 
approach to plants, and a white list approach to animals. What this 
means is that virtually all plants are allowed to be introduced to 
Hawai'i unless on a very short noxious weed list (approximately 80 
identified plants). Conversely, no non-domestic animals are allowed 
entry into the state unless on one of two short approved lists.
    The State of Hawai'i runs directly into federal preemption if it 
wishes to strengthen its statutes regarding plants or implement 
stricter state quarantine regulations. The only available choice is a 
long and laborious process of securing approval for heightened 
restrictions on a species-by-species basis from the Secretary of 
Agriculture. (7 U.S.C. Sec. 7756(b)(2)(B))
    With this problem in mind and recognizing Hawaii's unique risk from 
invasive species, a bill has been introduced in the House of 
Representatives that would provide Hawai'i with additional federal 
support on incoming quarantine inspections and establish an expedited 
process for the State to implement regulations to protect itself from 
pest threats. In particular, H. R. 3468, the Hawaii Invasive Species 
Prevention Act, would:

  <bullet> Mandate federal quarantine protection for the State of 
        Hawai'i to prevent the introduction of invasive species, 
        including a system of post-arrival protocols for all passengers 
        and cargo;
  <bullet> Allow for federal enforcement of State quarantine laws;
  <bullet> Establish an expedited review process for the State of 
        Hawai'i to impose restrictions on the movement of invasive 
        species or diseases that are in addition to federal 
        restrictions; and
  <bullet> Allow the State of Hawai'i to impose limited emergency 
        restrictions upon the introduction or movement of a pest or 
        disease.

    We hope you will review this bill and consider introducing a 
companion measure in the Senate.
Brown Tree Snakes and the Department of Defense
    The build up of U.S. military activities in the global war on 
terrorism has resulted in unprecedented growth and movement of military 
personnel and cargo at many installations in the United States and 
abroad. Current and planned expansion of military facilities on Guam 
are putting enormous pressure on military facilities there and, as a 
result, on U.S. Department of Agriculture Wildlife Services personnel 
tasked with inspecting the vast amounts of cargo leaving Guam. 
Available funding from the Departments of Defense, Interior and 
Agriculture for Wildlife Service's inspection operations has been level 
for about a decade and has, therefore, not kept pace with the 
military's massive operational expansion on Guam and elsewhere in the 
Pacific. Additionally, Wildlife Services personnel, equipment and 
canines are being housed in substandard facilities, if not crowded off 
Anderson Air Force Base altogether, and cargo is regularly leaving Guam 
without any inspection.
    In the last two weeks of June alone:

  <bullet> 7 military aircraft left Guam uninspected by Wildlife 
        Services personnel.
  <bullet> These aircraft contained 131 military household goods 
        packouts.
  <bullet> These packouts included 312,780 lbs. of cargo.
  <bullet> This cargo was bound for locations throughout the Pacific, 
        the U.S. mainland, and Europe.
  <bullet> Final destinations included temperate locations such as 
        Hawaii, American Samoa, Okinawa, Puerto Rico, California, 
        Texas, Florida, Alabama, Georgia, Arkansas, South Carolina, and 
        Louisiana where brown tree snakes could survive year-round and 
        pose significant ecological, economic and human health threats.
(Source: USDA-APHIS-Wildlife Services, Guam)

    The 2003 reauthorization of the federal Sikes Act (16 U.S.C. 
Sec. Sec. 670a-670f) included a pilot program requiring that the 
Integrated Natural Resource Management Plan (INRMP) for Anderson Air 
Force Base on Guam contain specific elements on invasive species. We 
recommend a review of this pilot test, including consideration that it 
be applied to all Defense Department INRMPs through either further 
amendment to the Sikes Act or the annual Defense Authorization Act.
    We also recommend specific requirements concerning not only the 
impact of invasive species to natural resources on military bases, but 
also the threats posed to outside locations as the result of exports of 
pests in military transport. Further, it is important that invasive 
species mitigation, especially regarding the movement of pests in 
military transport, become an integral component of the budgeting for 
base operations and military readiness. Important language that would 
have required this type of consideration was stricken from the Brown 
Tree Snake Control and Eradication Act of 2004 before it passed the 
Congress last year.

                               CONCLUSION

    Thank you again for this opportunity to offer The Nature 
Conservancy's comments on the critical issues related to invasive 
species policy. The global economy and our ability to quickly and 
efficiently move people and goods around the globe benefit all of us. 
However, these same modern advancements are exponentially elevating the 
potentially catastrophic threats of invasive pests and diseases. We 
greatly appreciate your recognition of this serious issue and your 
willingness to take a leadership role in enhancing federal policies and 
resources to address this problem.

    Senator Akaka. Thank you very much. I'm glad you mentioned 
others. We are certainly in need of partnerships in doing this, 
and the Armed Services might be able to be primed to help in 
this respect. Thank you for mentioning that.
    But to begin with, let me give high compliments to Governor 
Lingle and our chairperson, Mr. Peter Young, and to Mr. Paul 
Conry, the head of the Department of Forestry and Wildlife, 
when it comes to invasive species.
    The State of Hawaii, along with the county Invasive Species 
Committees, are head and shoulders above most other States in 
the acknowledgement of and planning for the arrival of invasive 
species. I am proud of our State's efforts, and I'm working 
with them to increase the Federal side of the equation by 
getting more funding to States and local groups to fight 
invasives. So I'm glad to have you all here with us and to have 
the testimony of Dr. Mindy Wilkinson.

STATEMENT OF DR. MINDY WILKINSON, INVASIVE SPECIES COORDINATOR, 
 HAWAII DEPARTMENT OF LAND AND NATURAL RESOURCES, DIVISION OF 
                     FORESTRY AND WILDLIFE

    Dr. Wilkinson. Thank you, Senator. I'm very happy to be 
here. I again appreciate your support very much, and aloha 
kakou to the staff that are here today. We appreciate your 
traveling so far.
    I have been asked to discuss legislation and legislative 
solutions to invasive species, but as you point out, to discuss 
how Hawaii can be a model for additional legislation. I'm going 
to do this by describing the partnerships, collaborations, and 
people who have put lifetimes of hard work into preserving what 
we see around us today. These partnerships and innovations in 
management developed here in Hawaii I think really do serve as 
good models for national programs.
    One of the key things that is different about Hawaii is 
that we have a clear border, and because of this, we can truly 
show what can be accomplished with a comprehensive effort to 
control invasive species. And we recognize that, for many 
invasive species, concerns waiting to start managing them until 
they are within a management unit like a national park or have 
crossed a regional boundary is not sufficient, just as, right 
now, spread of America faya is proving extremely difficult to 
check in the park.
    The most effective option for avoiding the further 
degradation of ecosystems by invasive species is prevention 
followed by trying to find them early, early detection and then 
rapid response, having the capacity to respond quickly, no 
matter whose land the invasive species is found on. It's very 
important not to risk losing another acre, another native 
plant, another bird to brown tree snakes, red imported fire 
ants, or the next pest that's lurking around the corner. 
Protecting Hawaii from invasive species by working together to 
improve prevention and quarantine networks and preventing the 
establishment of invasive species are both key, and we really 
appreciate your support of partnerships that have tried to 
accomplish that.
    As you point out, the State of Hawaii is committed to 
invasive species management through the stewardship of our own 
lands, which includes the 102-year-old forest reserve system 
and through our partnerships, including the Invasive Species 
Committees, as you've mentioned, that manage newly established 
species--this is similar in concept to the Exotic Plant 
Management Teams except that our goal is statewide eradication 
of our target species--and to the watershed partnerships that 
allow neighboring landowners to collaborate to manage 
landscapes. The Olaa-Kilauea Partnership was mentioned earlier.
    In 2003, the State legislature created the Hawaii Invasive 
Species Council to provide cabinet-level leadership for this 
issue on the State of Hawaii, and subsequently the Governor 
assigned her key cabinet members to be a part of that council 
and dedicated $4 million in new funding to control invasive 
species and support partnership efforts throughout the State. 
This program has been in existence for 1 year now, and I'm 
happy to report that with this new funding and in cooperation 
with the counties and our Federal partners, we have carried out 
research at ports to identify the goods in vessels that pose 
the greatest risk of introducing new invasive species to the 
State of Hawaii. We've expanded our operations to control 
invasive species that threaten the environment, such as coqui 
frogs and Miconia. We've provided over $600,000 in grants for 
improved research and technology to control and prevent the 
introduction of invasive species, and we've created an 
integrated outreach network that links together groups such as 
public health, agriculture, and the environment that all have 
something in common. And that's trying to slow the impact--or 
slow the introduction of invasive species and reduce the impact 
of those that have been established.
    The National Parks are what brought us here today, so I 
just want to say that they have contributed greatly to 
conservation in Hawaii and made strides--great strides--in the 
two aspects of invasive species management that provide the 
most significant long-term biological impact, both prevention 
and early response and control.
    We think that the National Resource Protection Cooperative 
Agreement, S. 1288, will build on the contributions that the 
national parks have made and allow cooperations that will 
continue to benefit both the resources of the national park and 
the State of Hawaii. Those of us that live and work in Hawaii 
appreciate the results of the conservation of the native 
ecosystems of our national parks. What we assume to be 
Conservation Management 101 was developed in many cases locally 
by managers such as current Hawaii Volcanoes National Park 
research manager Tim Tunison who's here today, who caused us to 
focus, instead of on the core of a population of weeds, on the 
outlying populations and develop a strategy that's made us more 
effective statewide, and also to Don Reeser, whose 
contributions have been noted about Kahului Airport. We're also 
concerned about brown tree snakes and all of the other species 
that could come in.
    And between your initiative to fund conservation 
partnerships as well as supporting bills that strengthen our 
ability to keep out species that pose a great risk to Hawaii, 
we feel that we can continue to improve the outlook for 
Hawaii's ecosystems and environment. Thank you.
    [The prepared statement of Dr. Wilkinson follows:]

      Prepared Statement of Dr. Mindy Wilkinson, Invasive Species 
Coordinator, Hawai'i Department of Land and Natural Resources, Division 
                        of Forestry and Wildlife

                              INTRODUCTION

    Aloha Senator Akaka. Thank you for traveling here to Hawai'i 
Volcanoes National Park to experience our unique and diverse Hawaiian 
ecosystems. My name is Mindy Wilkinson and I am the Invasive Species 
Coordinator for the Hawai'i Department of Land and Natural Resources. 
Finding solutions to the impacts caused by invasive species is one of 
the key priorities of our Department.
    While I've been asked to discuss legislation and legislative 
solutions with you today I will only be able to do this by describing 
the partnerships, collaborations and lifetimes of hard work that have 
gone into preserving what you see around you. The partnerships and 
innovations in management developed in Hawai'i serve as models for 
developing better legislative solutions to the problems caused by 
invasive species.
    Cooperating to control invasive species across landscapes has 
improved management of native ecosystems by including entire watersheds 
and allowing ecosystems to function instead of relying on constant 
mitigative measures to make up for the loss of key pieces of habitat. 
For many invasive species concerns, waiting to initiate management 
until they are on your property or have crossed a regional boundary is 
not sufficient. The most effective option for avoiding degradation of 
ecosystems by invasive species is prevention followed by early 
detection and rapid response to these species, no matter who's land the 
species is found on. It is important to not risk loosing another acre, 
another host plant or native bird to Brown Treesnakes, Red Imported 
Fire Ants or the next threat around the corner. Protecting Hawai'i from 
invasive species by working together to improve our prevention and 
quarantine network and preventing the establishment of invasive species 
and eradicate incipient populations of invasive species is key to 
preserving our ecosystems.
    The State of Hawai'i is committed to invasive species management 
through the stewardship of our own lands which includes the 102 year 
old forest reserve system and through partnerships including the 
Invasive Species Committees that manage newly established invasive 
species and Watershed Partnerships that allow neighboring landowners to 
collaborate to manage landscapes. In 2003 the Hawai'i State Legislature 
created the Hawai'i Invasive Species Council to provide Cabinet level 
leadership and the Governor subsequently asked key Cabinet members to 
participate as well as committing $4,000,000 in new state funding to 
improve programs devoted to invasive species prevention, early 
detection and rapid response, research and the application of new 
technology and public outreach.
    With the cooperation of the Counties, Federal partners and private 
groups we have:

  <bullet> carried out research at our ports to identify the goods and 
        vessels that pose the greatest risk of introducing invasive 
        species,
  <bullet> expanded our operations to control invasive species that 
        threaten the environment and economy as well as creating an 
        innovative aquatic species response team that will help protect 
        our vital reefs,
  <bullet> provided 17 research and technology grants totaling $600,000 
        to improve our ability to respond to invasive species, and
  <bullet> created an integrated invasive species outreach program to 
        link together groups representing public health, agriculture, 
        environment and tourism.

    Our goal is to provide the commitment and matching funds to 
encourage increased participation by our partners.

                             NATIONAL PARKS

    The National Parks Service has contributed greatly to conservation 
in Hawai'i and has made great strides in the two aspects of invasive 
species management that provide the most significant long term 
biological impact, prevention and early detection and rapid response. 
The National Resources Protection Cooperative Agreement Act S. 1288 
will build on the contributions that the National Parks have made and 
allow cooperation and partnerships that will continue to benefit both 
the resources of the National Park as well as the State of Hawaii.
    Those of us that live and work in Hawai'i and appreciate the 
results of the conservation of native ecosystems owe so much to our 
local National Parks. So much of what is locally assumed to be 
Conservation Management 101 was developed locally by National Parks 
resource managers. While the introduction of invasive weeds that have 
altered and replaced native forests spread out of control, the Hawai'i 
Volcanoes National Park Resource Manager Tim Tunison recognized that by 
setting aside Special Ecological Areas and managing them intensively, 
tracks of valuable native ecosystems could be preserved. By focusing on 
the outlying populations of invasive plants instead of the heavily 
infested cores of the populations the rate of spread could be slowed, 
stopped and potentially a strategy for the island wide eradication of 
invasive species was developed and is applied across the state by the 
Invasive Species Committees.
    Even the threat posed by direct flights from the mainland to the 
island of Maui was not given adequate consideration until Haleakala 
National Park Superintendent Don Reeser stood up to the expansion at 
Kahului Airport that without mitigation would have increased the rate 
of introduction of invasive species. His support prompted years of 
study and effort that among other successes have produced a Pest Risk 
Assessment that details the highest risk pathways for the introduction 
of invasive species as well and the development of a new quarantine 
facility at the airport that will allow the inspection of incoming 
goods and thereby reduce the risk to Maui. Even the mechanism that 
allows agencies to pool resources to hire the Invasive Species 
Committee and Watershed Partnership field crews that carry out invasive 
species management is based on the original Parks Cooperative Studies 
Unit that evolved to include all of Hawai'i.
    The Natural Resource Protection Cooperative Agreement Act S. 1288 
is a positive extension of the partnerships that Hawai'i's National 
Parks have fostered. By providing protected areas that act as 
laboratories for the most intensive cutting edge management the NPS 
fosters the development of a valuable core of dedicated individuals. 
The insights from the management of the parks themselves can lead to 
conservation measures that improve the conservations of lands across 
boundaries to include entire landscapes. From working together to stop 
the spread of the invasive tree Miconia into native rainforests to 
partnerships with neighboring landowners to create tracts of 
cooperatively protected forests the National Parks in Hawai'i are one 
of our most valuable partners.

                PROTECTING HAWAI'I FROM INVASIVE SPECIES

    Hawai'i is the most isolated island group in the world but the 
regulations that we rely on to maintain our unique environment are 
written with a continent in mind. Hawaii needs special consideration 
and special protective measures. Many of the species that have spread 
across the mainland United States have not arrived here and will not 
get here without the aid of a direct flight or shipment. Even native 
species from the mainland US and those species no longer considered a 
national interdiction priority are of utmost importance for Hawai'i to 
be able to intercept on arrival. Recent studies funded by the Hawai'i 
Invasive Species Council and carried out by the Hawai'i Department of 
Agriculture expanded on the initial risk assessments carried out at the 
Kahului Airport on Maui and have shown that even pre-inspected goods 
contain insects and pathogens not known to occur in Hawai'i.
    While the inspections of goods leaving Hawai'i are for the 
protection of California, Hawai'i has no comparable federal inspection 
of incoming domestic goods and is left vulnerable to the import of 
materials both domestic and foreign containing invasive species that 
threaten our health, economy and environment. We rely completely on our 
environment and its protection must become our foremost concern. H.R. 
3468 will reduce the risk to Hawai'i from uninspected goods. We support 
the intent of H.R. 3468 and ask that you consider introducing a 
companion measure in the Senate.

              BROWN TREESNAKE COORDINATION AND COOPERATION

    The state of Hawai'i is extremely fortunate in having so many 
treasured endemic flora and fauna remaining in the islands. Invasive 
species threaten that heritage. The impact that even one invasive 
species can have on Pacific Island flora and fauna has been made clear 
by the cases of Tahiti where Miconia, the invasive tree from Central 
and South America has replaced over 2/3 of the forests, and on Guam 
where the Brown Treesnake introduced by United States military traffic 
has caused the extinction of 9 of the 13 remaining native bird species. 
Miconia has already arrived and is a high priority for control on all 
Hawaiian island where it occurs. It is equally a high priority to 
prevent the introduction and establishment of the Brown Treesnake.
    In 2003, legislation was introduced to the Hawai'i State 
Legislature that would have required all cargo arriving from Guam must 
be inspected by USDA Wildlife Services. One of the barriers to passing 
this legislation at the time was uncertainty as to whether or not a 
certification method could be developed for cargo originating on Guam. 
Through a cooperative agreement funded by the Hawaii Invasive Species 
Council a Wildlife Services a pilot program was developed to test both 
the cost of the inspection process and the seal or verification of the 
cargo. Based on preliminary results, the pilot program did work and it 
now seems feasible to develop a system to increase the standards 
applied to civilian cargo departing from Guam. In our view efforts to 
prevent the establishment of Brown Treesnakes in Hawai'i will be less 
effective unless all high risk cargo departing from Guam is subjected 
to the same level of inspection effort. All entities moving materials 
from Guam to Hawai'i must be willing to participate in an interdiction 
effort that prevents the spread of the Brown Treesnake.
    In the Pacific we are fortunate to have a tradition of working 
together. The Brown Tree Snake Control and Eradication Act of 2004 was 
a welcome recognition of the personal commitment of many dedicated 
individuals and cooperation between agencies. The greatest success of 
all from Hawai'i's perspective has been that no Brown Treesnakes have 
been captured on Hawaiian soil since the initiation of the Wildlife 
Services inspections of military and civilian aircraft and cargo on 
Guam.
    We have concerns that Wildlife Services is not receiving adequate 
funding to continue these services and that increased military activity 
in and through Guam will increase the risk of a future Brown Treesnake 
introduction. We hope that the various military services will increase 
their support and participation in the Brown Treesnake interdiction 
efforts as their operations expand.
    The statement of the sense of Congress in the Brown Tree Snake 
Control and Eradication Act of 2004 is that there should be better 
coordination on control, interdiction, research, and eradication of 
Brown Treesnakes. We believe it is vital that the preventative steps 
needed to protect the Pacific islands from Brown Treesnakes become part 
of the operation directive given to all federal agencies, including the 
Department of Defense, that carry out operations that may spread 
invasive species that would cause long-lasting harm. The original 
congressional statement of concern over Brown Treesnakes provides this 
directive. We hope it will be included in future appropriations that 
support operations on Guam:
    ``No Federal agency may authorize, fund, or carry out any action 
that would likely cause or promote the introduction or spread of the 
brown tree snake in the United States or the Freely Associated States. 
All Federal agencies must consider brown tree snake interdiction issues 
when planning any activity that may cause the accidental introduction 
of any brown tree snake to uninfested areas in the United States and 
the Freely Associated States.
    Each Federal agency shall provide cooperative support, such as 
office space, laboratory space, laboratory animal holding facilities, 
kennel facilities, short-and long-term housing for staff, access to 
infested snake lands, commissary privileges, power, water, and 
communication lines to Federal agencies and staff of Federal agencies 
conducting brown tree snake control, interdiction, research, and 
eradication.
    Each Federal agency that manages any lands where the brown tree 
snake occurs shall fund the control and eradication of this species.''

                               CONCLUSION

    Thank you for the chance to offer a management agency's perspective 
on invasive species issues in Hawai'i. We believe that continued 
support for interagency partnerships that ensure there are no gaps 
between invasive species prevention, early detection and rapid response 
efforts, as well as supporting research and outreach programs, is key 
to our continued success.

    Senator Akaka. Thank you very much, Mindy. I next call on 
Neil Reimer.
    I want to thank the State Department of Agriculture and the 
U.S. Department of Agriculture for their work on intervening 
with pests and preventing them from reaching the islands. I 
thank you for all you do to keep us free from brown tree snakes 
and other species. You have one of the most difficult jobs 
there can possibly be with respect to invasive species. I look 
forward to hearing the challenges and solutions as you see 
them.
    So will you begin, Dr. Reimer?

STATEMENT OF NEIL REIMER, Ph.D., PLANT QUARANTINE BRANCH CHIEF, 
                HAWAII DEPARTMENT OF AGRICULTURE

    Dr. Reimer. Thank you, Senator, for those kind words, and 
thank you for allowing me to testify at this hearing. You have 
my written testimony. What I will do is take up excerpts from 
that so that the audience can also get a sense of what was in 
the written testimony.
    Again, my name is Neil Reimer, and I'm branch chief of the 
Plant Quarantine Branch within the Hawaii Department of 
Agriculture.
    The Plant Quarantine Branch within HDOA is mandated by 
State law to protect Hawaii's agricultural and horticultural 
industries, as well as the State's natural environment and 
human health, through the interdiction and exclusion of 
invasive alien species. Invasive species regulated by the 
branch include non-domestic animals, plants, and microorganisms 
that may be harmful and/or pathogenic to humans, animals, 
plants, and the environment. And you've heard some examples of 
that in some of the earlier testimonies.
    Recently, there has been heightened awareness of the 
problems associated with the entry of invasive alien species 
into Hawaii and increased interest and concern in protecting 
Hawaii's environment and endangered species. The demand that 
HDOA continue to exclude invasive alien species from Hawaii is 
growing as evidenced by the strong concerns engendered by the 
Kahului, Maui Airport Runway Extension Project, which you heard 
a little bit about, and the creation of the Hawaii Invasive 
Species Council.
    The Kahului Airport Runway Extension Project consisted of 
plans for major improvements for the airport on Maui to enhance 
airport services and operational safety. These improvements 
included lengthening and strengthening of an existing runway, 
constructing a new, state-of-the-art cargo handling facility, 
expanding bulk fuel storage capacity and distribution lines, 
and improving roadways and support facilities.
    What came was a joint Federal-State Environmental Impact 
Statement that identified alien species introduction as an 
environmental risk associated with the direct overseas flights 
landing on Maui at Kahului Airport. Because of concerns 
regarding the adequacy of the EIS, the U.S. Department of the 
Interior asked the U.S. Council on Environmental Quality to 
undertake a review of the environmental assessment and to make 
recommendations. One result of this MOU was the implementation 
of a risk assessment of invasive species introductions at 
Kahului Airport.
    The program that I manage was mandated to conduct this risk 
assessment. The Kahului risk assessment involved intensive 
assessments of checked and carry-on baggage by inspectors and 
detector dog teams, inspection of aircraft cabins and cargo 
holds of mainland flights and 100 percent inspections of 
agricultural products shipped by air cargo. The intent was to 
get a very good scientific handle on exactly what is getting 
into the State at this one port of entry and what remedies we 
can come up with to address the problems that we find.
    A total of 1,400 interceptions were made in the 130-day 
blitz that we called it, for an average of ten interceptions of 
invasive species per day. This compares to an average of 780 
interceptions per year, which is about two interceptions we 
have per day on a statewide basis. Now, it's quite a 
discrepancy. And a lot of that has to do with the degree of 
searching that we were able to do with this. It actually 
involved a lot of work by the inspectors on an overtime basis 
and other ways of handling that.
    To address the problems found in this risk assessment, 
inspector staffing at the airport was increased from five, 
which was the normal at that time, to 14 inspectors. Positions 
were changed from temporary to permanent, and a cargo 
inspection facility is planned to be built now, among other 
things.
    Once an alien species bypasses prevention efforts at the 
ports and becomes established in the State, it's virtually 
impossible to eradicate. The result is spread throughout the 
State, including into the national parks. It has been well-
demonstrated that it's less costly to prevent the entry of 
invasive species than it is to attempt to control them once 
established. Therefore, there should be a strong focus on 
prevention efforts to ensure that the problem never arises in 
the first place.
    In these prevention efforts in Hawaii, a number of issues 
have surfaced which could be addressed by Federal legislation. 
I will include three in this testimony, which are preemption, 
the brown tree snakes, and border inspections, and I'll very 
briefly summarize those, since I only have thirty seconds.
    Preemption. In the past, Hawaii has asked for exemption 
from the preemption clause in the Plant Protection Act. The 
preemption clause establishes that no State may regulate in 
foreign commerce any article, plant, biocontrol organism, plant 
pest, or noxious weed to control, eradicate, or prevent the 
introduction of the pest into the State. It also established 
that the State may not regulate these pests in interstate 
commerce unless the State's regulations are equal to or less 
restrictive than the Federal regulations. The clause does not 
allow or--I'm sorry--the clause does allow for the States to 
petition the Secretary of Agriculture to add additional 
restrictions on a case-by-case basis, which is a timely 
process. And Mr. Fox addressed some of the solutions that are 
being confronted now with Representative Case.
    A request to exempt Hawaii from the importation of ivy 
gourd fruits was denied because of a USDA finding that it did 
not represent a pest risk to the United States. This was in 
spite of Hawaii's testimony that ivy is one of the State's more 
serious noxious weeds. The State is still working with 
governing the importation of orchids grown in media from 
Taiwan. Orchids are normally held in quarantine in Hawaii 
because of the many various snails, slugs, and beetles, biting 
flies, and viruses that we have found on these orchids even 
when they were brought in to quarantine bare-rooted. The State 
of Hawaii and the Hawaii Orchid Growers Association requested 
USDA to be more restrictive on the requirements for orchid 
imports into Hawaii. In fact, there's still a pending case 
between Hawaii Orchid Growers Association and the USDA on this. 
The importation of orchids in media without any inspection or 
quarantine will exacerbate an already serious problem that 
affects one of Hawaii's major ornamentals. And, again, some of 
these pests have the potential--may not be host-specific to 
orchids, such as snails and slugs, could become problems in 
other areas as well.
    Brown tree snakes. Hawaii is concerned with the impact 
increased military activities in Guam will have on the State of 
Hawaii. The impact to Hawaii of the proposed expansion and 
cumulative effects of current and future expansions of the Air 
Force and Navy on Guam need to be addressed. Hawaii would like 
to see 100 percent inspection of military vehicles and 
household goods as well as 100 percent coverage by an 
interdiction program at Guam seaports and airports specifically 
looking for brown tree snake.
    Border inspections. Following September 11, the inspections 
of agricultural commodities from foreign ports for invasive 
species has shifted from USDA Plant Protection Quarantine to 
the Department of Homeland Security CBP, Customs and Border 
Protection. Federal agricultural inspectors have been 
reassigned from PPQ to CBP with assurances that there would not 
be any decrease for invasive species.
    The reality appears to be that the focus within CBP has 
been shifted from invasive species detection to the detection 
of potential acts of terrorism, which, of course, is of grave 
concern as well; however, a mechanism needs to be found to 
ensure that the inspection for invasive species from foreign 
sources remains a high priority within the Federal Government.
    Again, I thank you for the opportunity to testify and look 
forward to any questions you may pose. Thank you.
    [The prepared statement of Dr. Reimer follows:]

 Prepared Statement of Neil J. Reimer, Ph.D., Plant Quarantine Branch 
                Chief, Hawaii Department of Agriculture

    Senator Akaka and Senator Wyden, thank you for conducting this 
hearing and for granting me the opportunity to testify on existing 
legislation and legislative solutions as it relates to invasive 
species. My name is Neil Reimer. I am the Branch Chief for the Plant 
Quarantine Branch within the Hawaii Department of Agriculture (HDOA).
    The Hawaii Department of Agriculture's mission is to ensure that 
agriculture is a respected and significant driver of the State's 
economy. The Plant Quarantine Branch within the Hawaii Department of 
Agriculture is mandated by state law to protect Hawaii's agricultural 
and horticultural industries, as well as the State's natural 
environment and human health through the interdiction and exclusion of 
invasive alien species. Invasive species regulated by the branch 
include non-domestic animals, plants, and microorganisms that may be 
harmful and/or pathogenic to humans, animals, plants, and the 
environment.
    Our counterparts within the federal government include Customs and 
Border Protection (CBP) within the Department of Homeland Security, the 
United States Department of Agriculture Plant Protection and Quarantine 
(PPQ), and the Fish and Wildlife Service (FWS). CBP is mandated to 
enforce federal agriculture importation laws for material arriving from 
foreign sources. USDA enforces domestic quarantines for the movement of 
certain pests between states, and FWS enforces animal importations 
through the Lacey Act.
    Recently, there has been heightened awareness of the problems 
associated with the entry of invasive alien species into Hawaii and 
increased interest and concern in protecting Hawaii's environment and 
endangered species. The demand that HDOA continue to exclude invasive 
alien species from Hawaii is growing as evidenced by the strong 
concerns engendered by the Kahului, Maui airport runway extension 
project and the creation of the Hawaii Invasive Species Council under 
the governors office, to name a few.
    The Kahului Airport runway extension project consisted of plans for 
major improvements for the airport on Maui to enhance airport services 
and operational safety. These improvements included lengthening and 
strengthening of an existing runway, constructing a new, state-of-art, 
cargo handling facility, expanding bulk fuel storage capacity and 
distribution lines, and improving airport roadways and support 
facilities.
    A joint Federal-State Environmental Impact Statement (EIS) 
identified alien species introduction as an environmental risk 
associated with direct overseas flights landing on Maui at Kahului 
Airport. Because of concerns regarding the adequacy of the EIS, the 
U.S. Department of Interior (USDOI) asked the U.S. Council on 
Environmental Quality (CEQ) to undertake a review of the environmental 
assessment and to make recommendations. CEQ convened working sessions 
involving the U.S. Departments of Transportation, Interior, and 
Agriculture, and the State of Hawaii Departments of Transportation, 
Agriculture, and Land and Natural Resources, to address appropriate 
mitigation measures. These discussions led to adoption of a Memorandum 
of Understanding (MOU), dated August 24, 1998, and signed by 
participating federal and state agencies, for the ``Prevention of Alien 
Species Introduction through the Kahului Airport''. One result of this 
MOU was implementation of a risk assessment of invasive species 
introductions at Kahului Airport.
    The Kahului Airport Pest Risk Assessment (KARA) involved intensive 
inspections of checked and carry-on-baggage by inspectors and detector 
dog teams; inspections of aircraft cabins and cargo holds of mainland 
flights; and 100% inspections of agricultural products shipped by air 
cargo.
    A total of 1,897 commercial direct overseas flights, with 399,463 
passengers and crew on board, were inspected. Agricultural commodities 
in baggage or the aircraft cabin were found in 1,539 of the 1,897 
flights. While passengers and the aircraft were found to be potential 
pathways of entry of agricultural commodities and pests into Maui, the 
risk of pest introduction through these pathways was found to be small. 
Inspectors examined 4,644 agricultural items recovered from the cabins 
of aircraft or the carry-on or checked baggage (4,396) of passengers. 
Passengers declared 3,873 of the 4,644 agricultural products 
intercepted by inspectors. The remaining 771 agricultural items (16%) 
were interceptions of items that were not declared on Plant and Animal 
Declaration Forms distributed on the aircraft prior to landing. Only 11 
of the 771 intercepted items were found to be infested with a pest and 
were confiscated.
    Detector dog teams monitored 422 flights in the baggage claim area 
and found 1,143 agricultural products in baggage. Apples, bananas, and 
oranges were the products commonly intercepted. Only 3 restricted 
agricultural commodities were found, all Florida citrus without proper 
documentation for entry into Hawaii. These were confiscated and 
destroyed. Passengers declared 343 of the 1,143 agricultural items 
intercepted by the detector dog teams. The remaining 800 items (70%) 
were interceptions that were not declared on Plant and Animal 
Declaration Forms distributed on the aircraft prior to landing.
    Cargo was identified as a high-risk pathway for the entry of pests 
into Maui. A total of 480 different agricultural products were 
identified in cargo shipments and subjected to inspection. Pests were 
found on 114 different agricultural products: 51% of the products were 
infested less than 10% of the time; 49% of the commodities were 
infested more than 10% of the time. A total of 1,401 insect 
interceptions were made on agricultural commodities. Of the 279 species 
intercepted, 125 were not known to occur in Hawaii; 103 were 
established in Hawaii; and 51 were of undetermined status. One hundred 
fifty-six interceptions involved plant disease organisms, 47 of which 
were determined to be pathogenic species.
    A total of 1,401 interceptions were made in the 130-day blitz for 
an average of 10.8 interceptions per day for the KARA. This compares to 
an average of 782 interceptions per year (2.1 quarantine pest 
interceptions per day) on a statewide basis for the years 1995 through 
2001.
    These numbers give information on the problems with prevention of 
invasive species importations at one port of entry. In fact, this is a 
limited port of entry in that only certain commodities are allowed into 
the state through this port. The problem is worse at other ports.
    To address the problems found in this risk assessment, inspector 
staffing at the airport was increased from 5 to 14 inspectors, 
positions were changed from temporary to permanent, and a cargo 
inspection facility will be built, among others.
    Once an alien species bypasses prevention efforts at the ports and 
becomes established in the State it is virtually impossible to 
eradicate. The result is spread throughout the State including into the 
National Parks. What follows is environmental degradation, loss of 
species diversity, extinction of species, and other continuous economic 
losses for the rest of history. It has been well demonstrated that it 
is less costly to prevent the entry of invasive species than it is to 
attempt to control them once established. Therefore, there should be a 
strong focus on prevention efforts to ensure that the problem never 
arrives.
    In these prevention efforts in Hawaii, a number of issues have 
surfaced which could be addressed by federal legislation. I will 
include three in this testimony; preemption, brown tree snake, and 
border inspections.

                               PREEMPTION

    In the past, Hawaii has asked for exemption from the preemption 
clause (sec. 436) in the Plant Protection Act. The preemption clause 
establishes that no state may regulate in foreign commerce any article, 
plant, biocontrol organism, plant pest, or noxious weed to control, 
eradicate, or prevent the introduction of the pest into the state. It 
also established that the state may not regulate these pests in 
interstate commerce unless the state's regulations are equal to or less 
restrictive than the federal regulations. The clause does allow for the 
states to petition the Secretary of Agriculture to add additional 
restrictions on a case by case basis.
    A request to exempt Hawaii from the importation of ivy gourd fruits 
was denied because of a USDA finding that it did not represent a pest 
risk to the United States. This was in spite of Hawaii's testimony that 
ivy gourd is one of the State's most serious noxious weeds. This 
aggressive vine has invaded the lowlands, covering up trees and 
telephone poles alike. If a Federal preemption clause had been invoked 
on the regulation that allowed the interstate movement of honey bees, 
it would have also allowed honey bees to enter the State even though 
Hawaii does not have the Varroa and tracheal mites, has a State law 
that prohibits the entry of honey bees, and has the means for keeping 
them out of the State through interstate cargo, baggage, and mail 
inspections. If bromeliads were allowed to enter Hawaii with media 
attached as proposed earlier and a preemption clause had been invoked, 
it would have been an avenue for tropical biting midges to enter the 
islands and become established. The State is still very much concerned 
about the preemption in Federal rules governing the importation of 
orchids grown in media from Taiwan, and proposals for importations of 
orchids from other tropical and subtropical areas of the world. Orchids 
are normally held in quarantine in Hawaii because of the many various 
snails, slugs, ants, beetles, biting flies, and viruses that have been 
found associated with even bare-rooted plants. The State of Hawaii and 
the Hawaii Orchid Growers Association (HOGA) requested USDA to be more 
restrictive on the requirements for orchid imports into Hawaii. At a 
minimum, the request was to allow for inspection of the imported 
orchids. The main concern was for the accidental importation of slugs 
and snails as has been seen on orchid imports in the past. HOGA has 
initiated a lawsuit against USDA because of this decision. The 
importation of orchids in media without any inspection or quarantine 
will exacerbate an already serious problem that affects one of Hawaii's 
major ornamentals.
    Finally, an exemption from the Federal preemption clause is 
especially important for places like Hawaii when one also considers 
that Federal quarantines are frequently established to protect major 
crops that are grown in the continental U.S., which it should. Because 
of climatic differences between the continental U.S. and the non-
contiguous states, however, Hawaii's most important crops are 
considered minor. Case in point, for several decades mealybugs have 
been entering the continental U.S. on foreign bananas. These bananas 
are inspected and released by federal agencies in California (U.S. port 
of entry) based on bananas not being a major agricultural crop in the 
continental U.S. and, therefore, banana consumed as food not being 
considered a high pest risk. Banana was and still is a major crop in 
Hawaii, however. Whenever mealybug-infested bananas enter Hawaii from 
California, they are treated by freezing, fumigated with methyl 
bromide, or rejected. In 1984, a mealybug on bananas from Central 
America that had entered the U.S. via California became established in 
Hawaii and found its way onto some Hawaii flowers that were exported to 
California. The flowers were rejected in California. The mealybug is 
still being found on bananas that are imported into Hawaii from Central 
America via California.
    Awareness of these issues has prompted Representative Ed Case to 
introduce a bill (H.R. 3468) which would provide additional inspections 
and establish an expedited process for States to seek approval of the 
Secretaries of Agriculture and Interior for specific prohibitions or 
restrictions upon the introduction or movement of invasive species from 
domestic or foreign locations to Hawaii. HDOA hopes you will review 
this bill and introduce a companion into the Senate.

                            BROWN TREE SNAKE

    Hawaii is concerned with the impact increased military activities 
on Guam will have on the State of Hawaii. The impact to Hawaii of the 
proposed expansion and the cumulative effects of current and future 
expansions of the Air Force and Navy on Guam need to be considered.
    Current military activities on Guam have increased the risk of 
accidental importation to Hawaii of brown tree snake and other alien 
species. Brown tree snakes have been intercepted eight times in Hawaii 
in association with the movement of military aircraft, equipment, 
supplies, empty containers and household goods of military personnel. 
An increase in military movement will increase the risks for the 
movement of these pests to Hawaii.
    The brown tree snake was likely introduced to the island of Guam in 
materials moved by the military during the late 1940's. The snake has 
caused, and continues to cause, significant economic, ecological, and 
human health impacts to Guam. The brown tree snake is responsible for 
the extinction of 9 of 13 native forest bird species on Guam. The brown 
tree snake causes frequent electrical power outages and is a concern 
for human health and safety. Snakes currently occur at high densities 
on Guam and there is a significant risk that these snakes will be 
transported off Guam in military transport and cargo.
    Similar impacts would be experienced in Hawaii should the snake 
become established here. Experts estimate the potential economic impact 
to Hawaii would be between $400 million and $1.8 billion annually.
    Hawaii would like to see 100% inspection of military vehicles and 
household goods, as well as 100% coverage by an interdiction program at 
Guam sea ports and airports. It is important that invasive species 
mitigation, especially regarding the movement of pests in military 
aircraft, cargo, and personal effects, become a required component in 
military budgeting for base operations. The military needs to take 
responsibility for the movement of these pests. This is especially 
problematic during times of war as the movement of military equipment 
increases but the repercussions of not taking this into consideration 
are the movement and establishment of invasive species which will cause 
ecological, health, and economic losses long after the war is over and 
potentially for all future generations.

                           BORDER INSPECTIONS

    Following September 11 the inspections of agricultural commodities 
from foreign ports for invasive species has shifted from USDA/PPQ to 
DHS/CBP. Federal agriculture inspectors have been reassigned from PPQ 
to CBP with assurances that there would not be any decrease in the 
inspection of foreign agriculture commodities for invasive species. The 
reality appears to be that the focus within CBP has shifted from 
invasive species detection to the detection of potential acts of 
terrorism. This has become a great concern among the state departments 
of agriculture as an increase establishment of invasive species from 
foreign sources will have a severe negative impact on the agricultural 
economy. Many of these pests will also reach the National Parks. A 
mechanism needs to be found to ensure that the inspection for invasive 
species from foreign sources remains a high priority within the federal 
government.

                               CONCLUSION

    Thank you for the opportunity to testify before this committee. 
Some of these concerns may appear to be removed from the National Park 
system but all of the alien invasive species that are currently causing 
serious problems in the parks came into the State from outside sources, 
many unintentionally. We appreciate you taking the time to listen to 
testimony on these serious issues.

    Senator Akaka. Thank you. Thank you very much, Dr. Reimer.
    I have questions here for Mark Fox. We look upon the Nature 
Conservancy as having a broad view of Hawaii and conservation 
efforts throughout the State, and I would like to ask this 
question of you. In combating invasive species in Hawaii, where 
do you see the greatest opportunity for success?
    Mr. Fox. Well, we've all been commenting on the issue of 
prevention, and while we may lose battles and even wars if we 
don't deal with the pests that we have here now, like Miconia 
and now things like the wiliwili gallwasp, we've got to fight 
this battle on two fronts: Detecting and responding to and 
controlling the devastating pests we have now. But to answer 
your question, I think, again, the best opportunity for the 
greatest successes are figuring out systems of quarantine and 
inspection and managing incoming cargo that will prevent new 
introductions.
    We may need to spend a few million more dollars a year in 
improving Neil's program and giving him the inspectors he 
needs, but that's going to pale in comparison to the tens of 
millions, if not hundreds of millions, of dollars we're going 
to need to spend once new pests get established. I think the 
best opportunity for actual success, as opposed to just 
controlling the things we have, is preventing the new 
introductions.
    Senator Akaka. Since we are limiting it, in a sense, to 
national parks, is the strategy that you are mentioning 
appropriate for national parks and public lands, or are there 
other approaches that would work for them?
    Mr. Fox. I think the strategy is eminently appropriate for 
national parks and public lands. We're very lucky in Hawaii and 
all over the country to have the National Park System and other 
public lands. I include in that especially Defense Department 
lands. Some of these places contain the best examples of native 
ecosystems across our country because they have been under 
management regimes for long periods of time and haven't been 
developed, and, again, I say I include the Defense Department 
in that they've got vast tracks of land that, while they're 
certainly impacted by military training to a large degree, they 
have been left in their natural state and undeveloped.
    And so, again, preventing new introductions is supremely 
important to making sure that these areas that represent some 
of the best of the national ecosystems that we have left in 
this country are protected.
    Senator Akaka. Have there been specific Hawaii statutes 
that have been enacted which have contributed to the success of 
invasive species management?
    Mr. Fox. Sure.
    As Mindy mentioned, the Hawaii Invasive Species Council 
Authorization Act, a couple of years ago, has really put us 
leaps ahead of where we were just a couple of years ago, and 
the follow-up funding for that. It was the catalyst of all of 
that, to bring us all around, focusing collaborative efforts on 
prevention of new species, controlling species that are already 
here, doing scientific research on how to deal with pest 
species, doing public outreach and education so more people can 
understand why they shouldn't bring things back with them when 
they come to Hawaii, how they should report things that they 
see, and how they should prevent moving things around. So the 
Hawaiian Invasive Species Council legislation has been a 
wonderful piece of legislation that's progressed us forward.
    Unfortunately, we have missed the boat a couple of times on 
a few things that we're going to continue to try to get 
introduced and passed in the Hawaii State legislature, and that 
would include creating dedicated sources of State funding for 
invasive species. Right now, it's annual appropriations at the 
State level as well as methods to allow the State Department of 
Agriculture to protect itself from things like the brown tree 
snake introduction.
    A bill that was worked on at the legislature a couple years 
ago to try to require that anything coming from Guam had to be 
certified as having been inspected on Guam before it left 
failed in the State legislature, but we're gathering better 
data on how that type of predeparture inspection program would 
work on Guam so that it would be a smooth operating system that 
would not impact commerce negatively or movement of stuff 
between----
    Senator Akaka. On the Federal level, looking at 
Representative Case's H.R. 3468 and my bill being proposed, do 
you think these bills will help, or is there something else 
that's needed on a Federal level in legislation?
    Mr. Fox. Those are the ones. You've got them. A combination 
of those two and others that you're sponsoring, like the 
Aquatic Invasive Species Act, excellent.
    Senator Akaka. Comes out to be prevention and response and 
control.
    Mr. Fox. Yes, sir.
    Senator Akaka. Well, thank you.
    Dr. Wilkinson, I understand that the State has a 
coordinated effort for the control of both aquatic and 
terrestrial invasive species. In your opinion, which invasive 
species poses the greatest threat to the ecology of Hawaii, and 
what do you estimate it will cost to control the spread of 
these species?
    Dr. Wilkinson. Well, there are good arguments for a number 
of species, and some of the best arguments would probably be 
for species that aren't here yet, such as the brown tree snake, 
that as far back as August 1, 1905, we had the cooperation of 
the U.S. Department of Agriculture in saying that they would 
ban the importation or stop allowing permits for the 
importation of snakes into Hawaii, and still we're struggling 
with that.
    The Brown Tree Snake Control Act of 2004 also had a 
provision to improve quarantine for brown tree snakes, and 
still, you know, we're relying on, right now, our State effort 
to look at what we can do to improve our quarantine. But as far 
as species that are already here, I'm going to pick Miconia 
calvescens, the tree that's impacting the forests here on the 
Big Island, that's widespread on Maui, and that we actually 
think we can eradicate on Oahu and Kauai islandwide.
    I think it's a good example because although it is a 
terrestrial species, a plant species, it negatively affects the 
watershed, which not only impacts agriculture and the resources 
available to the people that live here, but potentially 
negatively impacts the coastal resources as well, increased 
sedimentation, and the changes in the forest affect the reef.
    What could be done to improve our coordinated control 
efforts for this species? I think that the bill that you 
proposed to allow the National Parks to form partnerships, S. 
1288, is an important step. We're not just asking for the 
national parks to step up and take responsibility. We're just 
asking that they be allowed to participate to the extent that 
they want to. We have crews controlling Miconia near the 
national park on Maui, and it would really help to have that 
other crew working in closer coordination with them across that 
border.
    The other bill that you proposed, the Public Lands Act, is 
exactly the kind of support that we would like to match with 
our increased State commitment in resources to fund crews, 
cooperative crews, to go out and control these invasive species 
wherever they occur on a species-by-species basis where we know 
we can eradicate them and have a true long-term biological 
impact here in Hawaii. So we really appreciate your efforts 
there.
    Senator Akaka. Thank you, Mindy. As you can tell, besides 
asking a lot what the State is doing, I'm asking what you think 
the Federal Government should be doing. And I thank you for 
your response on that, too, and that of Mr. Fox.
    Dr. Reimer, your testimony noted that the U.S. Department 
of Agriculture has several times refused to grant Hawaii an 
exemption from the Plant Protection Act to allow it to better 
protect against potential invasive species or other dangerous 
pests. What has been the rationale of the USDA in denying 
Hawaii these protective exemptions? Is Federal legislation 
exempting Hawaii from that the only viable solution?
    Dr. Reimer. The rationale varies, but essentially, they go 
through a risk assessment, and based on the risk assessment 
conducted by the USDA staff, they conclude that it's not high 
risk for the importation of these into Hawaii. But what we see 
is they don't always look at the same data that we do, if you 
will. For example, for the orchids, they did not consider slugs 
and snails is my understanding, or biting flies that have been 
associated with sphagnum moss. They feel that in this case, the 
mitigation measures are in place because of the way it's being 
grown in Taiwan and felt that it should be safe to come in 
under those conditions, with very minimal inspection. In 
reality, we know that that may be true for the first year, 
maximum, but that those inspections are going to decrease over 
time.
    The greenhouse conditions on the other side in Taiwan are 
not going to be how they are now when they initiate the 
program. It's going to lapse. So we have serious concerns to 
base it on that. That's why we prefer, at a minimum, that we at 
least be able to inspect these when they come in, even as a 
back-up. And that was denied.
    Senator Akaka. Let me mention another concern you have. I 
know that the possible introduction of brown tree snakes into 
Hawaii is of great concern of all of us. You have raised the 
possibility of increased military activity in Guam as 
increasing the threat of accidental introduction of the snake 
here in Hawaii. Short of curtailing these increased military 
activities, what additional actions can be taken to minimize 
this threat?
    Also, I heard about the possible snake sighting on Kauai 
recently. Do you have any new information on that?
    Dr. Reimer. The brown tree snake is probably one of our 
major concerns. And also what is happening now on Guam with the 
cooperation between the U.S. military and USDA Wildlife 
Services nationally is a breakdown, and that is of great 
concern to us. We feel, to be blunt, that DOD is not taking 
their share in the responsibility of ensuring that the brown 
tree snake does not leave in the products that they're moving 
from Guam. We feel they should take much higher responsibility 
to ensure that there is 100 percent inspection. The mechanism 
I'm not sure, but right now the entity in place there to do 
that is USDA Wildlife Services.
    As far as curtailing buildup of the military, I don't think 
that's an option. I wouldn't even suggest that. But I think the 
fact that there is a buildup of military needs to be considered 
and needs to increase the inspection level for things leaving 
Guam. And not just for Hawaii; they need to consider moving to 
the other islands as well which are free of brown tree snakes.
    As far as the update of the snake on Kauai, there was a 
sighting. There was some--it's not--well, how do I put this? 
There was a sighting. A 16-year-old girl made a sighting. There 
was some evidence. Different testimonies came in which were 
contradictory. So it very possibly was a credible sighting; 
we're not certain of that, but that's beside the point. When we 
do get information like that, we always do consider it to be a 
credible sighting and go in 100 percent. We have been doing the 
follow-up on that. By ``we,'' I mean--I'm not speaking for the 
Department of Ag, just a cooperative effort with the Department 
of Agriculture, Department of the Land and Natural Resources, 
USDA Wildlife Services, and BIISC, the Big Island Invasive 
Species Committee. There may be others which I have missed, and 
I'm sorry, but they're out there daily, setting up traps, doing 
searches in the area, and have not found any evidence of a 
snake at this point.
    Senator Akaka. Well, thank you. Thank you for your 
testimony. It will certainly be helpful to us, so thank you 
very much.
    Dr. Reimer. Thank you, sir.
    Senator Akaka. The panel, too. Thank you very much.
    I would like to call on the next panel, on partnerships: 
Julie Leialoha, who is manager of the Big Island Invasive 
Species Committee. Also, Teya Penniman, manager of the Maui 
invasive Species Committee, and Mr. Peter Simmons, regional 
operations director, Kamehameha Schools, Kailua-Kona.
    Will you, please, come forward. Thank you very much.
    Since you are from the Big Island, Julie, I would like to 
say a special mahalo nui loa for hosting us today and for 
coming to the hearing. The county committees are the ground-
zero level in fighting invasive species, and I thank all the 
county committees for their dedication and hard work on the 
front lines of this battle. I look forward to hearing your 
testimony of partnerships and your suggestions, also, for them.
    So will you please begin, Julie?

   STATEMENT OF JULIE LEIALOHA, MANAGER BIG ISLAND INVASIVE 
                  SPECIES COMMITTEE, HILO, HI

    Ms. Leialoha. Thank you, Senator Akaka, and distinguished 
members of the committee. I appreciate being invited here to 
speak today. I wanted to focus my testimony primarily on our 
partnership programs for the Big Island.
    As the Big Island Invasive Species Committee manager, I'm 
responsible for ensuring that our program complies with our 
strategic plan, a plan that was developed with the aid of all 
our participating partners, including the staff of the National 
Park Service who has been instrumental in developing control 
strategies of invasive species within its boundaries.
    BIISC, or the Big Island Invasive Species Committee, is a 
voluntary partnership of private citizens, community 
organizations, businesses, landowners, and government agencies 
such as the U.S. Fish and Wildlife Service, U.S. Forest 
Service, the Institute of Pacific Island Forestry, National 
Park Service, State Department of Land and National Resources, 
University of Hawaii, Research Corporation of the University of 
Hawaii, and the Pacific Cooperative Studies Unit, who are 
united to address the invasive species issues on the island of 
Hawaii.
    Partnerships of this nature are imperative in today's 
complex world of dealing with the species. Others have already 
pointed out the tremendous influx of organisms we face every 
day. How do we fully address the impacts of invasive species on 
our national environment, cultural heritage significant to 
Hawaii, as well as meet the economic goals and growth of our 
islands? I must refer back to our partnerships. Though agencies 
may have boundaries, our invasive species have no such 
boundaries and very few environmental limitations. BIISC, along 
with the other invasive species programs, was formed to fill a 
void in assisting other agencies in its war on invasive 
species.
    We strive to avoid the creation of a new bureaucratic 
structure, which is very challenging, I must add, and, instead, 
focus on working with existing organizations and agencies to 
achieve goals. We are one of the few agencies that deals with 
invasive species on private property while also assisting 
partner agencies, such as the State Department of Agriculture, 
Department of Land and Natural Resources, and the National Park 
Service. Our program priorities are organized around a key list 
of target invasive species, a hit list of sorts. This hit list 
is intended to identify plants and organisms that pose a 
serious threat to Hawaii so control measures can be organized.
    The main goal is for effective pest prevention before it 
becomes a serious problem requiring enormous resources. We call 
this early detection and rapid response. Like all of the other 
invasive species committees, we prefer to measure our success 
in terms of pest infestations prevented, contained, or 
eradicated. And the only way we can do this is with our 
partners.
    Like any other program, our resources are limited. We're 
happy to assist partners when we can and often request services 
of our partners as well. Most of the Federal lands of Hawaii 
Island are identified as high resource value lands. Lands 
immediately adjacent to Federal lands, such as the Park 
Service, are also considered a high priority for protection 
purposes. BIISC does spend a portion of our financial resources 
to ensure that invasive species stay out of high value resource 
zones like Hawaii Volcanoes National Park and would like to see 
Park Service employees involved in these control efforts as 
well, invasive species outside as well as vice versa. All 
available resources should be utilized to attack the problem as 
a whole. We should not allow political boundaries to dictate 
invasive species control efforts.
    Obviously, for this reason, the islands' invasive species 
committees were formed to fill that gap. However, we can't do 
it alone. It's imperative that our Federal brethren be 
authorized to work with its partners including fiscal 
expenditures outside of its jurisdictional boundaries. Though 
scientific partnerships help programs like BIISC create solid 
control efforts on the ground, we lack the staffing resources 
many of these organisms require to make a dent. Combining 
efforts makes the most sense. Our goal is not only to work with 
our partner agencies, but to create community cooperators to 
help control targeted species within their own communities. 
Community partnerships are also instrumental in invasive 
species control efforts.
    Our community partners have been very involved in invasive 
species control efforts, particularly with focus on controlling 
coqui frogs. This has been the focus point of invasive species 
on the Big Island lately, which Mayor Kim can attest to. I call 
it, however--in my case, I sort of call it the flavor of the 
month since there are other invasive species that probably 
require the same amount of attention this little frog is 
currently getting. There are other threats that actually pose a 
much larger problem, and they don't make as much noise, such as 
the little red fire ant that can blind domestic animals, which 
many of us believe may be a much larger problem than coqui, or 
a new species of mosquitoes, for example, that was recently 
identified on the Big Island known to be a carrier of West Nile 
Virus.
    The question was posed to me of what invasive species would 
pose the greatest threat to the Hawaii Volcanoes National Park. 
For Hawaii Island, I would have to say probably the coqui frog. 
This tiny frog is now zapping a tremendous amount of BIISC 
resources. Breeding populations exist on the boundaries of this 
park, and the march continues, as there have been confirmed 
captures of this pest within the park's boundaries. The next 
species probably could be the fire ant or perhaps the stinging 
nettle caterpillar, or a host of invasive plant species. This 
list is endless. The key is to identify the threat before it 
becomes a problem, coordinate a rapid response, and utilize all 
existing means to eradicate the threat immediately.
    Just made it. Thank you.
    Senator Akaka. Thank you.
    Ms. Penniman, thank you for coming from Maui and for 
representing the first of the county invasive species 
committees to be established. I appreciate hearing the wisdom 
from your experiences on Maui and also appreciate the 
partnership with the Maui County Council and its strong support 
of your efforts. So would you please provide us with your 
testimony.

 STATEMENT OF TEYA M. PENNIMAN, MANAGER, MAUI INVASIVE SPECIES 
                     COMMITTEE, MAKAWAO, HI

    Ms. Penniman. Thank you, Senator Akaka. I'm pleased to be 
here today and presenting testimony about the importance of 
partnerships in Hawaii that are working to address the impacts 
of invasive species on our environment, economy, and quality of 
life. Hawaii is an excellent forum to discuss invasive species, 
not only because of the wealth of resources and risks here, but 
also because of the innovative approaches that the Aloha State 
has developed.
    As is true, and as others have mentioned, throughout the 50 
States and all U.S. territories, invasive species in Hawaii 
know no boundaries. When a species is found on private, county, 
State and/or Federal lands, jurisdictional conflicts or 
uncertainty can arise, hindering efforts to quickly mount an 
effective response. Additionally, for many national resource 
agencies, addressing invasive species threats often falls into 
the category of extra, not primary, responsibilities. At times, 
despite the best intentions of government agencies to cooperate 
on cross-boundary issues, significant jurisdictional and 
resource gaps exist, affecting our ability to detect and engage 
a coordinated response to invasive pests.
    Often, the public must be engaged in efforts to detect or 
control a target species. Thus, ongoing education and public 
outreach efforts are essential to building and maintaining 
public support, yet the public is susceptible to becoming war-
weary if too many or conflicting messages are broadcast about 
each new invasive pest to reach our shores. Clearly, a means 
for coordinating efforts at the local level is needed in order 
to be effective at detecting and responding to invasive pest 
species. One other aspect is that sometimes the logistics of 
and manpower required to address particular species may 
outstrip resources of a single agency.
    On Maui, concerned local resource managers first began 
meeting in the 1990's to consider how to stop the spread of 
Miconia calvescens and other closely related plants. The group 
soon recognized the need to broaden the scope of activity and 
formed the Maui Invasive Species Committee. The committee 
secured funding to hire staff in 1999. Today, we have nearly 30 
staff members working to control targeted plants and animals in 
the county of Maui. Now, on each of the other major islands, 
Kauai, Oahu, Maui, Molokai, and Hawaii, an invasive species 
committee is working to prevent the establishment of new 
invasive species, control targeted incipient species, and 
involve the public in prevention and control activities.
    This work has been possible only because of an exemplary 
commitment from our partner agencies. MISC partners include 
private landowners, government agencies, and nonprofit 
organizations, pretty much the same list of Federal agencies 
that we heard Julie mention. And particularly, on Maui, the 
National Park Service has been a very important partner for us. 
These partners have provided significant funding, which has 
allowed us to make progress on our targeted species.
    However, MISC partners do much more than simply provide 
funding. Local knowledge of national resources and threats has 
been critical to its effectiveness. Agency representatives, 
among the most knowledgeable in the State, if not the Nation, 
meet bimonthly to share information, evaluate potential target 
species, suggest management practices, review progress, and of 
course always agree 100 percent on what we should do.
    I believe that the existence of the Invasive Species 
Committees, along with their demonstrated ability to translate 
action plans into concrete results, was a significant factor in 
helping to convince the Hawaii legislature and administration 
to provide the significant funding in recent years to addresses 
invasive species.
    The Hawaii model has practical applications nationwide. 
Representatives from Hawaii regularly participate in national 
workshops, review panels and symposia, including a recent 
workshop on pythons in the Everglades National Park. MISC is 
currently collaborating with economists at the University of 
Hawaii to apply cost/benefit analyses to management of the 
invasive weed Miconia. MISC staff is working to introduce local 
teachers to a Maui-based science curriculum developed under the 
leadership of Haleakala National Park. Using this curriculum, 
students on Maui are learning to capture and identify ant 
species to help detect any incipient populations of fire ants 
on Maui.
    One of the driving reasons for our work is to keep invasive 
pests out of the natural areas, including the spectacular 
Haleakala National Park, by surveying and controlling target 
species elsewhere on the island. Our staff actually rarely 
visit the pristine areas because we work at the interface of 
the urban areas and the rural areas, working to keep those 
pests out of the park. Thus, our efforts, which are supported 
by State and county funds, in addition to Federal funds, 
provide significant benefits to Federal resources, in 
particular park resources.
    I would like to conclude by noting that partnerships are 
the key to bridging jurisdictional and resource gaps. 
Partnerships help tap collective knowledge of local scientists, 
resource managers, and policymakers and focus their problem-
solving abilities on the most pressing invasive species issues. 
Partnerships help generate and, importantly, leverage funding 
to get workers on the ground when government agencies may be 
unable to take direct action.
    Federal agencies are and, I hope, will continue to be 
valued members of the Invasive Species Committee partnerships. 
Your vision, Senator Akaka, your interest, and your support are 
crucial to our work. Thank you for the opportunity to testify.
    [The prepared statement of Ms. Penniman follows:]

Prepared Statement of Teya M. Penniman, Manager, Maui Invasive Species 
                         Committee, Makawao, HI

    I am pleased to present testimony on the use of partnerships in 
Hawaii to address the impacts of invasive species on our environment, 
economy and quality of life. Hawaii is an excellent forum to discuss 
invasive species, not only because of the wealth of resources at risk 
here, but also because of the innovative approach the Aloha State has 
developed. As the Manager of the Maui Invasive Species Committee, I 
would like to highlight the importance of partnerships at all levels of 
our work.
    Partnerships are the key to bridging jurisdictional and resource 
gaps. Partnerships help tap the collective knowledge of local 
scientists, resource managers, and policy makers and focus their 
problem-solving abilities on the most pressing invasive species issues. 
Partnerships help generate and leverage funding to get workers on the 
ground when government agencies may be unable to take direct action. 
Partnerships help ensure that actions are coordinated, not duplicated, 
to maximize efficiency and ensure the wise use of limited resources.

    1. EFFECTIVE PARTNERSHIPS ARE NEEDED TO CONTROL INVASIVE SPECIES

    As is true throughout the 50 States and all U.S. territories, 
invasive species in Hawaii know no boundaries. When a species is found 
on private, county, state and federal lands, jurisdictional conflicts 
or uncertainty can arise, hindering efforts to quickly mount an 
effective response. Additionally, for many natural resource agencies, 
addressing invasive species threats often falls into the category of 
extra--as opposed to primary--responsibilities. At times, despite the 
best intentions of government agencies to cooperate on cross-boundary 
issues, significant jurisdictional and resource gaps exist, affecting 
our ability to detect and engage a coordinated response to invasive 
pests.
    Given the plethora of potential targets affecting Hawaii, knowing 
when to marshal and deploy appropriate resources requires having a 
clear set of decision criteria. Without an existing system or 
infrastructure, critical response time can be lost. Often, the public 
must be engaged in efforts to detect or control a target species. Thus, 
ongoing education and public outreach efforts are essential to building 
and maintaining public support. Yet, the public is susceptible to 
becoming war-weary, if too many or conflicting messages are broadcast 
about each new invasive pest to reach our shores. Clearly, a means for 
coordinating efforts at the local level is needed in order to be 
effective at detecting and responding to invasive pest species.

                       2. PARTNERSHIPS IN HAWAII

    In Hawaii, on each of the major islands--Kauai, Oahu, Maui, 
Molokai, and Hawaii--an Invasive Species Committee (ISC) is working to 
prevent the establishment of new invasive species, control targeted 
incipient species, and educate and involve the public in prevention and 
control activities. On Maui, concerned local resource managers first 
began meeting in the early 1990's to consider how to stop the spread of 
Miconia calvescens and other closely-related plants. The group 
recognized the need to broaden the scope of activity and formed the 
Maui Invasive Species Committee in 1997. The Committee secured funding 
to hire staff in 1999. Today, we have nearly 30 staff members working 
to control targeted terrestrial plants and animals in the County of 
Maui.
    MISC's work has been possible only because of exemplary commitment 
from our partner agencies. MISC's partners include the following 
private landowners, government agencies, and nonprofit organizations: 
the County of Maui; State of Hawaii, including the Department of Land & 
Natural Resources and Department of Agriculture; National Park Service; 
US Fish & Wildlife Service; USDA Forest Service; USDA Wildlife 
Services; US Department of Defense; and several other community-based 
companies and nonprofits, such as Maui Land & Pineapple Company, and 
The Nature Conservancy. Financial support from these and other agencies 
and organizations, such as the National Fish & Wildlife Foundation, has 
allowed us to make significant progress detecting and controlling a 
host of target species.
    However, MISC's partners do much more than simply provide funding. 
Local knowledge of natural resources and threats has been critical to 
MISC's effectiveness. Agency representatives, among the most 
knowledgeable in the state, if not the nation, meet bimonthly to share 
information, evaluate potential target species, suggest management 
practices, and review progress. Most of Maui's committee members have 
been involved with MISC since its early beginnings, fourteen (14) years 
ago.
    The existence of the Invasive Species Committees, along with their 
demonstrated ability to translate action plans into concrete results, 
was a significant factor in convincing the Hawaii legislature and 
administration to dedicate $8 million in state funding for invasive 
species over the last two years. Because the ISCs had the 
infrastructure to put more crew to work combating miconia, coqui frogs, 
pampas grass, and other identified pest species, it was possible to 
quickly demonstrate results from additional funding. Additionally, 
because receipt of State funding was contingent upon generating 
matching funds from non-State sources, federal funding was crucial to 
securing these additional funds over the last two years. These funds 
supported four components of a state-wide strategy: prevention, 
response & control, research & technology, and public outreach.
    The Hawaii model has practical applications nationwide. 
Representatives from Hawaii regularly participate in national 
workshops, review panels and symposia, including a recent workshop on 
pythons in the Everglades National Park. MISC is collaborating with 
economists at the University of Hawaii to apply cost/benefit analyses 
to management of the invasive weed, miconia. MISC staff is working to 
introduce local teachers to a Maui-based science curriculum developed 
under the leadership of Haleakala National Park. Using this curriculum, 
students on Maui are learning to capture and identify ant species to 
help detect any incipient populations of fire ants.
    Similar efforts to select and prioritize target species, evaluate 
ongoing activities, and share knowledge and resources are occurring 
across the state, on each island. The Coordinating Group on Alien Pest 
Species (CGAPS) provides an important statewide forum for invasive 
species issues. These island-based partnerships along with CGAPS are 
helping to sustain a successful collaboration of private landowners, 
government agencies and nonprofits.

                    3. THE ROLE OF FEDERAL PARTNERS

    One of driving reasons for our work is to keep invasive pests out 
of the natural areas, including the spectacular Haleakala National 
Park, by surveying and controlling target species elsewhere on the 
island. We frequently work in residential areas and at the interface of 
natural areas and rural lands, often in habitats that have already been 
largely altered. Our crews rarely see the pristine habitats they are 
protecting. Thus, our efforts, which are supported by state and county 
funds in addition to federal funds, provide significant benefits to 
federal resources, in particular, park resources. As noted above, 
invasive species have no respect for political or jurisdictional 
boundaries. Two of our primary target species, pampas grass and 
miconia, have been found within park boundaries. Without continued 
vigilance, these species would flourish within the Park. Allowing the 
National Park Service to use federal resources for work on invasive 
species outside park boundaries, as contemplated in the Natural 
Resources Protection Cooperative Agreement Act, S. 1288, is not only 
logical from a resource management perspective, but also equitable, 
from the perspective of shared responsibilities among partners.
    Other cooperative funding avenues are essential to maintain the 
progress we have made on pushing back the most threatening species on 
Maui and elsewhere in the islands. The life history and sheer 
competitiveness of most invasive pests require a long-term commitment 
to the effort. Continued and enhanced cost-share federal programs, such 
as the Cooperative Conservation Initiative, and the Federal Noxious 
Weed Bill, will be essential to ensuring on-the-ground success. New 
funding sources are needed to address species such as the coqui frog.

                             4. CONCLUSION

    Effective partnerships are essential to detect and control the most 
serious invasive plant and animals threats, but are not adequate 
without other important components. In addition to response and 
control, Hawaii must be able to develop and implement meaningful 
prevention measures to stem the seemingly endless onslaught of new 
pests that are sapping our resources and decimating our irreplaceable 
natural treasures. The Hawaii Invasive Species Prevention Act, 
introduced in the House, would be a positive step in this direction by 
helping to reduce the risk of unwanted introductions to Hawai'i. 
Continued efforts to find safe, host-specific biocontrol agents must 
continue to be supported. In summary, innovative approaches are working 
in Hawai'i. The need for continued partnering and additional resources 
is critical. Your vision, interest and support are crucial to our work. 
Thank you for the opportunity to testify.

    Senator Akaka. Thank you for your testimony, Teya.
    Mr. Simmons, as you know, I am a proud graduate of 
Kamehameha Schools and have fond memories and current 
connections with the school. I'm pleased to hear about this 
partnership that the school has with the Park Service to 
involve and teach students about invasive species on Kamehameha 
land and park land, and I look forward to hearing your 
testimony on this partnership. You may proceed.

          STATEMENT OF PETER SIMMONS, REGIONAL ASSET 
        MANAGER, LAND ASSETS DIVISION/ENDOWMENT GROUP, 
                       KAMEHAMEHA SCHOOLS

    Mr. Simmons. I wasn't going to talk about the partnership. 
No, just kidding.
    I have submitted written testimony, so I don't want to go 
over that in detail. I'd like to maybe discuss a little bit 
about what drives us to the partnership and then how we're 
trying to do our part.
    As you know, this has been a tremendous period of 
transition these last 5 to 7 years with Kamehameha, and one 
thing that emerges very clearly is that we are a Hawaiian 
institution. And that's not obvious to--it was not obvious to 
everyone who works with Kamehameha Schools 7 years ago, because 
many thought we were an institution that taught Hawaiian 
children, and not everyone that works for Kamehameha Schools is 
Hawaiian. But being a Hawaiian institution means that we need 
to understand what it is to be a Hawaiian institution. And 
that's led us in the area of natural resource management to 
seek our roots, to understand in a primitive and primal way, 
what does that mean? And some of the things that are emerging, 
No. 1, from the Kumulipo, we didn't come first; we came last. 
Well, what does that mean, to come last?
    We understand that coming last means that we have a 
responsibility to our elders, those who came before us, in the 
family that we're a part of. It doesn't mean that the elders 
don't sacrifice for the family, and it doesn't mean that we 
don't sacrifice for the family. But consider the difference 
between that view and a view that was expressed at one of the 
conservation conferences a couple years ago where it was stated 
that conservation is what this person did after the bills were 
paid. And in the context of what we've heard today, I think the 
people that spoke out are taking the Hawaiian view that it's 
not after. Conservation and taking care of your family is not 
what you do after the bills are paid.
    So what does that mean programmatically, and what are we 
trying to do with our land? I believe that it's our 
responsibility to create and protect what we would call the 
aina momona. How are we going to build wealth to our land? And, 
again, I go back to the turmoil of the years past. In the past, 
building wealth to our land meant, in many cases, displacing 
Hawaiian people to create wealth in the economic sense, cash-
flow. And God knows we needed it at certain times during our 
existence. But today, and in the last several years, it's meant 
something else, especially on the land. It's meant how can we 
create the kind of wealth that is wai-wai on these lands? What 
does it mean to have the kind of Hawaiian wealth? A place 
where, yes, there's an abundance of natural resources endemic, 
yes, there's an abundance of cultural opportunities and 
practices that are going on on those lands, and that education 
is happening on those lands, and that we're looking at those 
lands in an entirely different way than just how can we create 
more money to educate Hawaiian children? It's far more complex.
    It exposes us far more deeply to the risk of the extremes, 
if you will, but I think it's the only way for us to do our 
part. But we can't create aina momona in a society that's sick. 
We can't do that in a community that has got ice problems and 
has families that are broken apart, working several jobs, or 
sick neighbors that aren't participating in a similar vision.
    I thank God, really, for the National Park over these many 
years. In my testimony, you'll see that I take credit for 
Kamehameha Schools for starting the National Park--only 30,000 
acres, but it was the first acres. And I think it came from a 
good place in our trustee's heart. They felt that it was in 
better hands, safer hands, hands that could do better by it. 
Geri Bell is in the back there, and she's done Pu'uhonua O 
Honaunau and other places that Kamehameha Schools owned. And I 
know especially at that time, looking back at the 
correspondence, it was painful to give something up. And that's 
good; it should be painful. But it was in better hands.
    We have 26 miles of boundary with the park, and it's my 
goal that we create our own national park model based on what 
we've learned from this national park, only it needs to be 
Hawaiian because of our Hawaiian institution. So I'm going to 
leave a few seconds on my testimony, but I hope I've answered 
your question.
    [The prepared statement of Mr. Simmons follows:]

   Prepared Statement of Peter Simmons, Regional Asset Manager, Land 
          Assets Division/Endowment Group, Kamehameha Schools

    My Name is Peter Simmons I am testifying today on behalf of 
Kamehameha Schools. I am the Regional Asset Manger of our Land Assets 
Division on Hawai'i Island. Our divisions' areas of responsibility on 
Hawai'i Island include 292,000 acres of Agricultural and Conservation 
lands on Hawaii Island. Hawaii Volcano National Park was created in the 
early 1920's in the ma kai lower portion of the 'ili (smaller land 
division) of Keauhou, which is in the ahupua'a (larger land division) 
of Kapapala, Ka'u. These lands were owned by KS and they were given to 
the Federal Government; they comprise the core of the park. These lands 
include Halema'uma'u Crater and the lands surrounding it. In subsequent 
years, through a series of transactions Hawai'i Volcanoes National Park 
acquired from KS the remainder of our ma kai lands in Keauhou. In total 
about 30,000 acres of former KS land is a part of HVNP. In addition, 
the national park at Pu'u Honua o' Honaunau was acquired from KS.
    We share 26 miles of boundary with the national park which includes 
11 miles of HVNP's recently acquired Kahuku property. At times, in the 
past our land use and the parks were similar (cattle were grazed in the 
park in its early days) as they were on our lands. Sometimes our land 
uses have been complementary as is the case today in that our weed and 
ungulate control at Keauhou, Ka'u enhances the parks environmental as 
their control of certain aggressive exotic species helps us achieve our 
environmental goals more efficiently. There are places where our 
management activities and strategies differ from those of the park. 
Presently we believe that while there are lands on which we desire to 
have no ungulates, there are other lands where we believe that the 
native ecosystems can and do significantly show signs of improved 
health by reducing but not eliminating ungulates. In some of these 
lands we have hunting, in some of these lands we have grazing 
especially to reduce fire risk through the reduction of fuels 
especially pyrophytic exotic grasses.
    Before the current era of large-scale, watershed, land partnership, 
there was sharing sometimes more limited than others of information, 
values and goals that influence how we viewed and mitigated the 
presence of aggressive exotic plants and animals. In the present era of 
watershed partnerships with the park and others, our alignment of 
values, agreement of common goals and accelerated and open information 
sharing is proving to be successful in the battle to control aggressive 
alien organisms.
    We are grateful to have HVNP as our neighbor, partner and friend in 
conservation. Areas where we can improve our control over exotic pests 
are being addressed and include:

  <bullet> Fire modeling and control (Exotic plants generally reoccupy 
        the land after fires),
  <bullet> General community and landowner education and outreach 
        (neighborhood plants, cats, and mosquitoes negatively affect 
        the quality of our native plants and animals), and
  <bullet> Endeavoring to reach deeper understanding Na mea o' Hawai'i 
        (Hawaiian Culture) to understand the indigenous culture's 
        perspective on ethno-ecological issues.

    Senator Akaka. Thank you very much, Peter, for your mana'o, 
and I'm so glad you raised aina momona and also wai-wai as 
concepts in the life of the people.
    I have questions here for either Julie or Teya, and I have 
questions for both of you, but please feel free to respond to 
any of the questions.
    You both have identified several other Federal and State 
agencies that are partners with the committee in working on 
invasive species issues. Are there any lessons that can be 
learned from your work with any of the other Federal or State 
agencies that would be useful in improving your partnership 
with the National Park Service?
    Ms. Leialoha. As far as improving, I'm a person who 
actually started my career at this park, under the guidance of 
Tim Tunison. We've worked really closely for a very, very long 
time on a number of invasive species.
    With the Big Island Invasive Species Committee, our Federal 
partnership and our Federal partners have been very, very 
supportive and very strong with our partnership. We've been 
building additional partnerships with more concern with 
bringing in additional public partnership programs. There's 
always room for improvement.
    The only thing I can say is that, like Teya mentioned, as a 
committee, we do meet on a quarterly basis, and, yes, we always 
agree 100 percent on everything. That's a very constant 
challenge. But our goal--and I have to say that the Big Island 
Invasive Species Committee, we're a little ahead of the other 
invasive species committees by actually developing a completed 
strategic plan that we would like to expand at some point. And 
we do have a number of signed-on partners, actually signed on 
to our Memorandum of Understanding and Agreement. I can't 
really say any more other than our current partnership program 
has been working relatively well, and the one thing that we do 
agree upon is that we agree to disagree. That's about all I can 
say about partnerships.
    For the National Park Service, they have been, probably, 
the key instrument in developing our control strategies, which 
we've sort of taken from them and plagiarized to utilize in our 
control strategy programs. The Park Service has been very 
instrumental, with the help of Don Reeser and the early work of 
Tim Tunison and others in this room, and these are formulas 
that have laid the groundwork for actual invasive species 
control efforts.
    Teya, do you want to expand on that?
    Ms. Penniman. I think I would have to say the same thing, 
just in terms of the importance of our partnership, especially 
with the National Park Service.
    But in addition to the funding and the strategy and the 
collectively trying to figure out how we do this and, to a 
certain extent, I don't like to say, but I sometimes say, we're 
just making it up as we go along. I mean, we don't really have 
models for this. And I think that's true for the EPMT program 
as well. It's a very innovative program. But one of the most 
powerful things that I experience is when we pull together with 
our partners and actually work together on the ground. And one 
of the places we see that is when we're working in Haleakala 
National Park, trying to control pampas grass, there's nothing 
like seeing 25, 30 people strung out across the mountain, all 
engaged collectively in the same effort. There's just a lot of 
power and strength to that.
    Senator Akaka. You have highlighted, both of you, the 
importance of coordinating a rapid control response effort to 
combat an invasive species before it becomes a problem. From 
your experiences, what are the keys to a successful rapid 
control response?
    Julie?
    Ms. Leialoha. For our efforts, one of the key things is 
really public education, because we need the public to be our 
eyes and our ears in finding these organisms. As a classic 
example, the gallwasp, that was, again, a find by a member of 
the general public. We count on those things coming in, and 
then we count on our partners, especially our scientists, that 
are more in tune with identifying whether or not these will 
become invasive species. And then it's our efforts in actually 
developing the rapid response with our partners to go out and 
actually do the control work.
    Our hit list, it's not an ad hoc hit list. These are 
organisms that have been clearly identified as posing a serious 
threat to Hawaiian ecosystems. And one of our goals--and we 
constantly have to keep up--is the constant training of our 
staff in identifying these organisms, especially when it comes 
to bugs. We're not trained entomologists. Many of our staff 
members are not trained botanists. We consistently have to 
train our staff to identify these species. And it's also 
something we like to get more public participation in getting 
them educated in what we're looking for so they can call it in 
and help us identify these species, and then create the 
coordinated effort to go out and do the actual control work.
    Ms. Penniman. May I follow up?
    Senator Akaka. Yes.
    Ms. Penniman. A couple of things.
    I just would like to add, too, that one of our biggest 
obstacles as we're working is always, of course, with imperfect 
information. The adage of invasive species work is ``The more 
you look, the more you find.'' So when conducting a rapid 
response, we're responding to what we know. So one of our 
challenges is to constantly reassess, to build in feedback 
loops to ensure that we're getting enough information that's 
accurate, that's timely, to know should we keep doing what 
we're doing? Is it still feasible? Is what we're doing doable, 
or should we cut our losses and move on?
    One of the models that is helping, I think, that's been 
developed on Guam in particular is for addressing brown tree 
snakes. And the State has been very proactive in trying to 
train workers throughout the State in how to identify, how to 
locate, how to find snakes, and also developing and training 
people on how to initiate a rapid response so that there are 
people now throughout the State who will be able to set that up 
in a coordinated, consistent way, as opposed to all of us 
having to make it up each time we're faced with that kind of a 
situation.
    Senator Akaka. Teya, after reading your testimony, I was 
interested in the work that the Maui Invasive Species Committee 
is doing with local teachers and schools. Is the Park Service 
or any other Federal agency involved in the work with the 
schools, and can you tell me more about your work to involve 
local schools in this issue?
    Ms. Penniman. Yes. This actually was an idea that came out 
of the Haleakala National Park education staff, which was to 
develop a curriculum that was Maui-based, essentially Hawaii-
based, but using Maui as the model, with the concept that so 
many students in Hawaii have no concept of what there is here 
in terms of natural resources, in part because what they're 
taught with are textbooks that come from the mainland, so they 
have no real context that they can relate to when they're 
trying to learn basic scientific principles.
    And so a number of educators and interpretive staff at the 
National Park got together and began to develop a curriculum to 
address that need, developing a number of modules that will 
take the different parts, the different ecosystems, from the 
shore to the summit, and teach students about that, developing 
activities that they can conduct in their own back yards to 
learn about these very basic principles of ecology and science. 
It has been really gratifying. And then built into each of 
those modules are specific invasive species components. 
Unfortunately, because of lack of funding, the full nine 
modules have yet to be completed, but we do hope to be able to 
finish that to see that fully completed. One of the activities 
was to take students and train them to look at and to try and 
detect, try and learn what's here and hopefully to be some of 
our early detectors.
    Also gratifying is that some local teachers took that 
concept and got additional funding from private foundations to 
implement that at their own school. So it's been a very 
positive snowballing effect.
    Senator Akaka. Thank you, Teya, for that.
    I mentioned that I was interested in the schools. And, of 
course, Peter Simmons represents Kamehameha, and did speak 
about Hawaiian values and Hawaiian life, which is really basic 
in the culture and traditions of this land. And so I want to 
thank him for his written statement as well.
    And, Peter, I'd like to visit a little more with you about 
what you folks are doing with invasive species at Kamehameha.
    Mr. Simmons. When I first came to work with Kamehameha in 
the field of conservation and forestry and large landscape 
level agriculture, our entire budget was somewhat less than 
$40,000 a year statewide. That was mainly centered around our 
forestation program across the road that was being run by Ely 
Nahulu. I think we need to credit Ely Nahulu with the 
consistency from the early days. I believe he's in his 27th 
year.
    With that little bit of money and our combined effort, 
every year and many times a year, students and staff go up and 
learn about what it is to be Hawaiian, what it is to be in that 
environment, and what it is to do restoration work. But in a 
year, $40,000 for this landscape that we are responsible for 
wasn't nearly enough, and we were lucky that we had partners 
such as the National Park to help us and the Fish and Wildlife 
Service, and a great number of partners to help us even 
leverage that little bit of money at that time.
    In recent years, I'm happy to say that in terms of exotic 
plants and aggressive plants and animals, we are probably 
spending $1.4 million directly. Right across the street again, 
Kamakani Dancil, who is here right now, is responsible for 
having initiated our rubus ellipticus program. I think he's 
convinced us we need to spend a quarter million dollars next 
year, and that's on top of $180,000 this year, and that's on 
top of $10,000 or $12,000 to get it going. And Keala Kanakoli 
is sitting over next to Kama, and he's helping oversee that 
both for us in terms of how people have addressed the land, but 
also did they bring the right cultural sense to it?
    Now we know that the kind of budget that we have right now 
statewide is not sufficient to do all that we need to do, and 
we're not going to go out and start doing interdiction at the 
ports, although we agree with that.
    Inoa Thompson, our trustee, asked me how much money did I 
think was needed to take care of our natural resources? And I 
used a quick figure which was based on kind of a statewide 
assessment for bird habitat. I said for bird habitat, to 
improve it and make it ready to replace endangered birds that 
are growing across the way, the figure we have is $200 million 
a year. We own about 10 percent of the State, and I quickly 
came up with $20 million. And I thought the other trustees were 
not going to be so happy with me. They weren't so happy to hear 
that.
    And Inoa, quite sagely, he was thinking, and he was 
pondering that, and he said, ``You'll never be successful, even 
with that kind of money, unless you get the people involved, 
and that's not just through education, but through the cultural 
commitment and every means that we can, unless the people of 
Hawaii really get it, will never be successful even with that 
kind of money.''
    Now we have initiated a complimentary program to our Malama 
Aina program, which is called Aina Ulu: Grow the land, grow the 
people. We have about 22 small programs that are in various 
stages of development, from very mature programs, like the 
Edith Kanakaole Foundation, where we gave them land and they're 
doing just fine with their curriculum, thank you very much, to 
other places, all the way to Kauai, to the Waipa Foundation, 
where they needed more help. We're not trying to make these 
people who we're trying to help become Kamehameha Schools. 
We're trying to help them do what they do well, as long as it's 
aligned with Kamehameha Schools.
    So we are beginning more and more to get people back to the 
land so that the people can help. Just like Ms. Penniman was 
saying, seeing 25 people lined up as volunteers is a lot more 
than just 25 laborers going out to kill something. They take it 
to their family. The family gets it. And I think that's how 
we're going to change the society. We're not proud enough of 
what we have. We don't understand as a community what it is to 
be proud of what we have. We're surrounded by exotic plants and 
animals, and people have commented on it at other locations.
    I would just like to mention one other piece, and that is 
something that I'm awfully proud about. And that's one of our 
contractors, an outfit named Forest Solutions. They do the 
everyday work. They're the ones that we pay to take care of 
some of the rubus problems and the like. For the last couple of 
summers, first with Kama's help and always with Keala's help, 
they have been hiring local kids to go out, as employees, but 
it's not just a summer job; I think it's a summer job like no 
other. They're out with Keala, they're learning what it is to 
be Hawaiian and being on the land as Hawaiian people, and 
they're learning to take care of the land. And their families, 
I'm sure, appreciate the education and the fact that their 
children are learning a lot more than just about a summer job. 
So in every way that we can, we are determined to use what 
means we have, both in the classroom and the classroom that's 
up at Keauhou.
    I should mention quickly that a little less than a year 
ago, we bought back the lease at Keauhou Ranch, the upper 
section of the 'ili of Keauhou that we're in right now. We 
bought that back from the lessee, and with the help of many of 
the people in this room, we went through a very, very rigorous 
planning process, and we are using the entire 34,000 acres for 
education, for cultural enrichment, for stewardship, and to the 
extent that it bouys up those goals, those items we will 
consider economic development. It's a plan like no other, and I 
appreciate the help of the people in the room that have helped 
build the plan.
    Senator Akaka. Well, mahalo, Peter, for all of this--for 
your mana'o, your feelings, and I like your thought of, you 
know, we're the last here, and we're responsible. We're 
responsible for what's here, and that's true. And what we are 
trying to do here is just a part of being responsible. And I 
say mahalo nui loa for your part in this and all of the people 
that you mentioned as well.
    Before we conclude this hearing, I want to thank all of you 
for coming today, and I want to again thank all of our 
excellent witnesses for their testimony. I think this hearing 
has made clear the enormous needs and challenges to control 
invasive species in Hawaii and nationally, and I would like to 
inject that we need to keep in mind doing it culturally and 
traditionally as well.
    The message I will take home to my colleagues in the Senate 
is that successful control of invasive species means strategies 
for both prevention and not just treatment or control. This 
hearing has made clear that we must do more at the national 
level, both in terms of new authorizing legislation and 
increased appropriations, to allow the Federal Government to be 
a better partner with States and with nonprofit entities as 
well if we are to make a difference with this issue.
    Finally, I would like to again say mahalo nui loa to Cindy 
and the wonderful staff here at Volcanoes National Park for all 
your help with this hearing. This has been a beautiful hearing. 
The set-up has been so nice. The results have been great. And 
it's all because of what you've done, Cindy, you and your 
wonderful staff, and many others here.
    I also want to say thanks to our staff, Tom, Dave, and 
Shirley from Washington, who came all the way out here to help 
with this hearing.
    And with no further ado here, I'd like to say again mahalo 
nui loa, thank you very much, and this hearing is adjourned.
    [Whereupon, at 12:27 p.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

        Responses of Lloyd Loope to Questions From Senator Akaka

    Question 1-3. What are some of the invasions that pose the worst 
threats to the parks in Hawaii? How did these invaders get to Hawaii in 
the first place and what damage do they do? What measures are needed to 
prevent more of the same?
    Answers. Senator Akaka and Senator Wyden, thank you so much for the 
opportunity to give the best answers I can to these challenging 
questions. I came to Hawaii in 1980 as the first Research Biologist for 
the National Park Service at Haleakala National Park on the island of 
Maui. My job was to conduct research and advise the park on strategies 
and techniques for protecting its biodiversity and ecosystems. I was 
transferred to my current agency, U.S. Geological Survey, in the mid-
1990s, with little change in mission and fortunately more authority to 
work outside the park.
    In the 25 years I've been in my job on Maui I've learned the hard 
way that by far the greatest threat to the national parks and the 
highly endemic island biota is the barrage of invasive non-native 
species introductions. Many of them are introduced intentionally, 
including most of our worst invasive plants, as for example the 
invasive tree Miconia, which was regarded as just another pretty plant 
when it was introduced to Hawaii in about 1960. Many others--including 
insect pests and diseases--are not introduced on purpose but are 
hitchhikers primarily on horticultural and other agricultural goods 
that come in through our ports-of-entry--our airports and harbors--both 
from foreign countries or from the U.S. mainland.
    Hawaii, an isolated oceanic archipelago with 10,000 endemic species 
that occur nowhere else in the world, is especially vulnerable to 
biological invasions. One consultant to USDA (Russell McGregor) back in 
the 1970s noted that per unit area, the rate of alien insect 
introduction in Hawaii is 500x that of the continental United States. 
And it's no better today, yet remarkably Hawaii still has largely 
intact natural areas. Yet Hawaii doesn't get any special consideration 
from the federal government's effort at our borders for prevention from 
invasive species. Allowing the NPS to work with and assist in funding 
of partnerships to combat invasive species before they reach park 
boundaries seems to me to be a sound first step in untying the hands of 
the NPS to more fully address the invasive species threats to our 
natural and cultural heritage.
    Often there are huge gaps among agency mandates. An important event 
in my personal education was an outbreak of rabbits at Haleakala 
National Park that took place in 1990, 15 years ago this month. The 
park dodged a bullet and eradicated the rabbits, but not until we had 
removed 100 rabbits. Afterward, we learned that a thoughtless pet owner 
had released about 6 rabbits in the park 10 months earlier. It was one 
of the more spectacular success stories I've ever been involved with. 
If we hadn't succeeded, the island of Maui, including the cabbage 
farmers in the upcountry agricultural area, would have had to deal with 
millions of rabbits within a few years. Maui people instinctively 
realized this, and the park has never enjoyed so much praise from the 
local community as during those months right after we eliminated the 
rabbits. But we learned that if the infestation had been outside the 
park, no one other than the landowner would have had a mandate to 
eliminate the rabbits. The Hawaii Department of Agriculture told us 
that their mandate was to encourage rabbit raising, in cages, of 
course. We wondered whether, and still wonder, if the rabbit 
infestation had occurred just outside the park boundary on ranch land, 
for example, would the park have been able to legally act to eradicate 
rabbits in cooperation with the ranch? The national parks definitely 
need such a mandate.
    The rabbit incident inspired me while still working for the NPS, to 
take on the Miconia issue in 1991 after that destructive neotropical 
tree was first discovered on Maui in the Hana area, about 5 miles from 
the park. Then park superintendent Don Reeser, though very supportive 
of my efforts, cautioned me that people might question whether a NPS 
employee had any authority to get involved with on-the-ground work on 
land outside the park. Fortunately, partners recognized the severity of 
the situation and came forward to work with us in a succession of 
events that eventually led to formation of the island invasive species 
committees. But the National Park Service desperately needs authority 
to work with partners and spend funds outside park boundaries to 
protect the parks. There are many examples of this need, but I believe 
there are no better examples than rabbits and Miconia on Maui.
    I mentioned above that many of the destructive invasive species 
that threaten the parks and Hawaiian biodiversity were introduced 
intentionally and many others were introduced unintentionally. 
Prevention of such introductions to Hawaii, both intentional and 
unintentional, at U.S. and State borders (ports of entry), is almost 
entirely under the mandate of the U.S. Department of Agriculture 
(USDA), the U.S. Department of Homeland Security (DHS), and the Hawaii 
Department of Agriculture (HDOA). Prevention of invasive pests that 
threaten natural areas is, however, at best a secondary priority for 
any of these federal or state departments. For Homeland Security, the 
priority is obvious--national security. For the agriculture 
departments, the priority (quite understandably) is protecting 
agriculture. Border protection is of course an extremely difficult 
undertaking and secondary priorities understandably tend to fall 
through the cracks. But Hawaii needs special protection if there is to 
be hope of protecting more than fragments of its natural heritage into 
the future. I must say that in my opinion HDOA's Plant Quarantine 
Branch under Neil Reimer is striving as best they can to prevent 
threats to natural resources as well as agriculture. Dr. Reimer as well 
as Mark Fox of The Nature Conservancy, part of the second panel today, 
will address the phenomenon of federal preemption and some measures 
that could be effective toward shoring up the best prevention efforts 
of HDOA.
    Some very damaging invaders of have recently breached federal and 
state border control efforts. Many of these are not just threats to 
natural areas but threats to horticulture, agriculture, and in some 
cases human and animal health as well. HDOA has an informative system 
of New Pest Alerts at http://www.hawaiiag.org/hdoa/npa.htm.
    Adequately conveying the severity of Hawaii's current invasive 
species crisis as it affects national parks, endemic biodiversity, and 
Hawaiian culture in Hawaii is a daunting task, but I'll briefly 
summarize the status of just six recently introduced pests that are 
especially damaging. I could be wrong (and would be delighted to stand 
corrected) but I'm pretty sure that the ones that likely came to Hawaii 
from foreign countries would not have been considered actionable 
quarantine pests if intercepted by DHS/USDA at the international Ports 
of Honolulu or Kona, because none of them would be considered threats 
to mainstream U.S. agriculture. This may well be a rational national 
response to the challenging demands of protecting U.S. agriculture from 
foreign pests in this age of free trade. But I think it is important to 
at least consider the cumulative toll being taken on the natural and 
cultural heritage of Hawaii and Pacific islands, as manifested in 
national parks and elsewhere.
    Erythrina gall wasp (Quadrastichus erythrinae): This species was 
first reported on Oahu in April 2005. It was originally probably from 
Africa but most likely passed to us from Taiwan (where the species is 
invasive and recent outbreaks occurred) in flowers or nursery material. 
All of a sudden, this very tiny wasp (males are 1mm long, females 
1.5mm) is currently in the process of killing almost all Erythrina on 
Oahu, both the endemic species (wiliwili) and the cultivated species. 
There are recent reports of new neighbor island records of the gall 
wasp near the Kona (Hawaii island) airport (7/21/05), the Kauai airport 
(7/26/05) and downtown Kahului, Maui (7/30/05). Sadly, the prospects 
for Maui's Pu'u-o-Kali wiliwili preserve and the wiliwili in all the 
national parks on Hawaii island are absolutely frightening. As little 
as three years ago, the magnificent native wiliwili trees on Maui 
seemed to be ``bulletproof.'' Three years ago a seed-eating bruchid 
beetle (Specularius impressithorax) from Africa suddenly arrived and 
was soon attacking almost all wiliwili seeds. Today, as a result of 
arrival of the Erythrina gall wasp, the possibility of survival of 
wiliwili, until now one of the few abundant endemic tree species in 
remnant areas of lowland dry areas of Hawaii, into next year is even in 
doubt. This is especially unfortunate because of the traditional 
importance of wiliwili for native Hawaiians in making outriggers of 
canoes, surfboards, and lei.
    For updates on this rapidly evolving issue, see http://
www.hear.org/issues/wiliwilionmaui/
    'Ohi'a rust disease (Puccinia psidii): Another plant trade-related 
introduction, this newly established (April 2005) rust, most likely 
arrived with a plant shipment from Florida or possibly a foreign 
country somewhere in the neotropics, poses a potentially formidable 
threat to Hawaii's 'ohi'a (Metrosideros polymorpha) forests. This is of 
course alarming since 'ohi'a comprises over 80% of Hawaii's still-
intact forest. The rust seems to have a broad host range within its 
family (Myrtaceae, including mountain apple, guavas, eucalyptus, etc.). 
This rust disease that attacks new, actively growing leaves is not just 
a threat to Hawaii's forests. New Zealand will be looking out to 
protect its beloved Metrosideros forests. Australia is definitely 
concerned for its 600+ endemic species of Eucalyptus. Though it has so 
far been detected only in forests on Oahu, Maui HDOA has found 'ohi'a 
rust disease in shipments from Oahu to at least two big box stores on 
Maui.
    Nettle caterpillar (Darna pallivitta): Another one from Taiwan, 
this is a human health threat (various levels of discomfort ranging to 
occasional anaphylactic shock and blindness) as well as a serious 
environmental pest, attacking palms and related plants. Dr. Arnold Hara 
of UH-CTAHR in Hilo has stated (quoted in the Honolulu Star-Bulletin) 
that it is a worse pest than the notorious coqui frogs. The vector via 
which it arrived is obviously nursery material, and it is likely spread 
daily on Hawaii island (along with coqui, etc.) by infested nurseries. 
In spite of HDOA efforts at interisland quarantine, Maui HDOA has 
documented it at least once in a shipment from the Big Island to a Maui 
nursery. Unless some biocontrol agent is located and processed rapidly 
through the extremely restrictive system, this pest will soon be in 
rain forests of Hawaii Volcanoes National Park.
    Little fire ant (Wasmannia auropunctata): This tiny neotropical ant 
has devastating effects on biodiversity and human quality-of-life in 
its invaded range in far-flung parts of the world (e.g., Galapagos, New 
Caledonia, West Africa). It was first detected here in Puna, Hawaii, in 
1999, and HDOA is now reporting it from 50 sites on Hawaii island. Its 
localized spread after its initial discovery has been associated with 
transport of nursery plants. There is an HDOA interisland quarantine 
for little fire ant, and to date it remains confined to Hawaii island, 
except for a small population on Kauai that is under control but not 
eradicated. The poorly understood effects of this species in blinding 
mammals, perhaps by stinging their corneas [e.g., P.W.Walsh, P. 
Henschel, and K.A. Abernathy, 2004, Logging speeds little red fire ant 
invasion of Africa. Biotropica 36(4):637-641] are just now starting to 
appear in housecats in the Puna area of Hawaii island.
    Scale insect of hala (Thysanococcus pandani): Hala (Pandanus 
tectorius) is common to abundant in many Hawaiian coastal ecosystems 
and an extremely important plant species for native Hawaiians, who have 
traditionally used it for cordage, thatching, healing, decoration, etc. 
The scale insect arrived on the island of Maui in 1995, apparently on a 
shipment of hala brought in to a botanical garden from somewhere in the 
western/southern Pacific. Hala is currently sickly with yellowing 
leaves over much of windward East Maui, though the insect's effects 
have not yet reached the Kipahulu section of Haleakala National Park. 
Hala is an important component of the national parks in the Kona area 
of Hawaii island. Long-term effects of scale attack on hala populations 
are likely to be severe, but that is uncertain at this point in time. 
The South Pacific island of Rarotonga, in the Cook Islands, apparently 
lost its Pandanus in the 1920s from a similar accidental insect 
introduction.
    Cycad scale or sago palm scale (Aulacaspis yamatsui): This hearing 
is focused on national parks in Hawaii, but my agency, the USGS Pacific 
Island Ecosystems Research Center, also does work in other Pacific 
islands, including Guam, the location of War in the Pacific National 
Historical Park. Guam has more than one million trees of the 
Micronesian endemic cycad Cycas micronesica, a magnificent tree that 
reaches heights of 80-100 ft., and all currently seem to be at risk 
from attack by this scale insect. Cycad scale reached Florida, 
transported on cycads from native Thailand in 1996, reached Hawaii 
(which has no native cycads) on cultivated cycads from Florida in 1999, 
and reached Guam from Hawaii in 2003. There are said to be 30 nurseries 
in Guam that bring in nursery stock from Hawaii. Guam is said to be 
tightening up its regulations for horticultural imports because of 
recent pest incursions, including cycad scale and coqui frogs.
    And finally I must mention a species not in Hawaii or any Pacific 
island yet--the Red Imported Fire Ant (RIFA, Solenopsis invicta) that 
is poised to invade from either side of the Pacific Rim--from 
California (where Hawaii gets most of its goods and where RIFA was 
first discovered in 1998) and China/Taiwan/Hong Kong (where RIFA first 
got a foothold in 2004-05). It seems clear that RIFA can invade Hawaii 
and Pacific islands based on various models of potential habitat, as 
well as by the fact that it has invaded many Caribbean islands over the 
past two decades.
    Mr. Chairman, I would like to submit for the record as well my 
article ``The Challenge of Effectively Addressing the Threat of 
Invasive Species to the National Park System.'' This was published last 
fall in the journal Park Science, and I have an electronic copy.*
---------------------------------------------------------------------------
    * The article has been retained in subcommittee files.
---------------------------------------------------------------------------
    Note: The views expressed in this testimony are those of the 
author, given as a conservation scientist in response to Senator 
Akaka's questions, and do not necessarily reflect the views of USGS, 
the Department of the Interior, or the United States Government.


</pre></body></html>
